<html>
<title> - GETTING ACELA BACK ON TRACK</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                      GETTING ACELA BACK ON TRACK

=======================================================================

                                (109-17)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                               RAILROADS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure
                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
22-496                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)



                       SUBCOMMITTEE ON RAILROADS

                   STEVEN C. LaTOURETTE, OhioChairman

THOMAS E. PETRI, Wisconsin           CORRINE BROWN, Florida
SHERWOOD L. BOEHLERT, New York       NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida                JERROLD NADLER, New York
SPENCER BACHUS, Alabama              ROBERT MENENDEZ, New Jersey
JERRY MORAN, Kansas                  BOB FILNER, California
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
ROB SIMMONS, Connecticut             EARL BLUMENAUER, Oregon
TODD RUSSELL PLATTS, Pennsylvania    LEONARD L. BOSWELL, Iowa
SAM GRAVES, Missouri                 JULIA CARSON, Indiana
JON PORTER, Nevada, Vice-Chair       PETER A. DeFAZIO, Oregon
TOM OSBORNE, Nebraska                JERRY F. COSTELLO, Illinois
MICHAEL E. SODREL, Indiana           EDDIE BERNICE JOHNSON, Texas
LYNN A. WESTMORELND, Georgia, Vice-  JAMES L. OBERSTAR, Minnesota
Chair                                  (ex officio)
DON YOUNG, Alaska
  (ex officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
Crosbie, William, Senior Vice President of Operations, Amtrak....    46
 Hecker, JayEtta Z., Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................    13
 Jamison, Robert D., Acting Administrator, Federal Railroad 
  Administration.................................................    13
 Jelensperger, Francis, President, Alstom Transportation Inc. of 
  America........................................................    46
Spurr, William A., President, Bombardier Transport of North 
  America........................................................    46
 Weiderhold, Fred E., Jr., Inspector General, Amtrak.............    13

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    61
Costello, Hon. Jerry F., of Illinois.............................    63
Oberstar, James L. of Minnesota..................................    96

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Crosbie, William.................................................    65
 Hecker, JayEtta Z...............................................    71
 Jamison, Robert D...............................................    89
 Jelensperger, Francis...........................................    93
Spurr, William A.................................................   103
 Weiderhold, Fred E., Jr.........................................   111

                       SUBMISSIONS FOR THE RECORD

 Jelensperger, Francis, President, Alstom Transportation Inc. of 
  America, responses to questions................................    94
Mica, Hon. John L., a Representative in Congress from Florida:

  Letter to the Inspector Generals for the U.S. Department of 
    Transportation and Amtrak, May 11, 2005......................     6
  California Rail News, "Amtrak's Gunn Displays a Disarming 
    Honesty", August 2002........................................    30
Spurr, William A., President, Bombardier Transport of North 
  America, responses to questions, and chart.....................   108

                         ADDITION TO THE RECORD

Federal Transit Administration, Transit Threat Level Response 
  Recommendation, report.........................................   117

 
                       GETTING ACELA BACK ON TRACK

                              ----------                              


                        Wednesday, May 11, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Railroads, Washington, D.C.

    The committee met, pursuant to call, at 10:00 a.m. in room 
2167, Rayburn House Office Building, Hon. Steve LaTourette 
[chairman of the committee] presiding.
    Mr. LaTourette. Good morning. The Subcommittee on Railroads 
will come to order.
    I want to welcome all of our members and witnesses here 
today for the hearing entitled Getting Acela Back on Track. 
This will be one in a series that this Subcommittee will hold 
relative to Amtrak. Today's hearing will focus on the Acela 
train sets and the great difficulty. There will be additional 
hearings, we believe, in the months of May and June focusing on 
other aspects of Amtrak's operations. Then hopefully with the 
bipartisan work of all members of this Subcommittee, we hope to 
look at a number of reform proposals that are being circulated 
relative to the operation of Amtrak.
    As all of you are probably aware, Amtrak's Acela train, 
which runs in the northeast corridor, was removed from service 
last month due to cracked brakes. As of today, all 20 Acelas 
remain parked while Amtrak, Bombardier and Alstom and various 
subcontractors work out the necessary repairs. Back in the 
1990s, the Acela train was billed as America's answer to the 
French TGV and the Japanese bullet train. But the Acela has 
been faced with challenges from the beginning, even before the 
train went into service in the year 2000.
    In 1999, the manufacturers had to deal with design issues 
which reduced the train's speed on curves and increased trip 
times. Then problems arose with excessive wheel wear, 
undercarriage vibration and broken bolts. The introduction of 
the Acela was delayed for many months while engineers developed 
a fix.
    In 2002, after about 18 months of service, cracks began to 
develop in the brackets for the Acela's yaw dampers, a 
suspension component that look like a giant shock absorber. 
Engineers eventually worked out a solution to that problem as 
well.
    Last month, Amtrak and the FRA were running an Acela speed 
test in the northeast corridor with the intention of raising 
the train's operating speed over a certain stretch of track. 
After the test, an FRA official asked to have a look at the 
train's undercarriage. That official was Rich Thomas, the FRA's 
motive, power and equipment specialist for region II. I think I 
would like to express on behalf of the Subcommittee a debt of 
gratitude to Rich. His sharp eyes caught an important defect 
that everyone else to that moment in time had missed, serious 
cracks in the Acela's disc brakes. I don't know if the FRA 
gives out commendations and medals, but I think Rich certainly 
deserves one for his eagle eyes.
    After further inspection, inspectors found cracked brakes 
on virtually ever axle of every Acela train and the entire 
fleet was grounded. The decision to remove Acela train sets 
from service, though dramatic, was the right thing to do. In my 
opinion, Amtrak put the safety of its passengers and commuter 
operators in the northeast corridor and the traveling public at 
large ahead of revenue. They put safety first, and for that I 
think they should be commended.
    I would also like to bring attention to another fact that 
seems to have been lost in all of this. Amtrak, due in large 
part to the size of its fleet and flexibility of its dedicated 
work force, was able to recall equipment from around the 
country to build complete Metroliner sets and place them in the 
Acela express time slots between New York and Washington with 
very little disruption to its customer base. This was a 
herculean task that was planned with little notice and executed 
with discipline and precision. If this had been almost any 
other operator, I question whether the results would have been 
the same.
    We need to get to the root cause of the current 
difficulties with Acela, but more than that, we need to know 
how the lessons learned can help us improve rail safety in the 
future. For example, there is a serious question of information 
flow. I understand that the Acela technicians on the shop floor 
had not been fully informed as to what type of cracks to look 
for and where to look on the discs for cracks. There were no 
testing procedures in place to find these cracks, and the shop 
technicians apparently did not have access to the appropriate 
manufacturer's service bulletins.
    In closing, I want to say that today's hearing is not about 
assessing blame, but rather about finding the best way to 
ensure the safety and efficiency of high speed rail service on 
the northeast corridor.
    Before I yield to our distinguished Ranking Member, Ms. 
Brown, I want to issue an apology to the witnesses and members 
of the Subcommittee today. Even though the Chair believes that 
testimony to appear at this and any other hearing is embargoed 
until the time of the hearing, for some reason I woke up this 
morning and was able to read the testimony in the newspaper. I 
hope in the future the staff and members or whoever who has 
access to the testimony that helps us prepare for these 
hearings in the future will respect that embargo.
    One reason that that is important is at least one of the 
witnesses today has brought additional testimony and an 
addendum that may in fact alter the nature and character and 
substance of the testimony that he or she intends to give. It 
is very important to the integrity of the hearing process that 
that information remains with us.
    Also, I would like to ask unanimous consent for 30 days for 
members to revise and extend their remarks and permit the 
submission of additional statements and materials by the 
witnesses. Without objection, so ordered.
    Now it is my pleasure to yield to our distinguished Ranking 
Member, Ms. Brown of Florida.
    Ms. Brown. Thank you, Mr. Chairman. Good morning, and I am 
glad you got a chance to read the paper.
    I want to first of all thank you for holding this hearing. 
I think this is a very important hearing.
    On April 15th, during a routine inspection of the Acela 
express train, the Federal Railroad Administration discovered 
cracks in the train's brake discs. This led to an investigation 
of brake discs on the entire system. Among the 1,400 brake 
discs, about half of the rotors had failed. As a result, Amtrak 
has been forced to suspend express service.
    Let me first of all congratulate Amtrak for being cautious 
and erring on the safety side. I understand while the FRA 
recommended that Amtrak ground the fleet, it was Amtrak's 
decision to do so. Too often, this Subcommittee has 
investigated mechanical failures after the accident has 
occurred.
    A few weeks ago, I attended a press conference on the 
crisis, and I just want to once again state how much I 
appreciate Amtrak and Amtrak workers for stepping up to the 
plate, working hard to minimize service disruptions and 
addressing the needs of Amtrak passengers. Amtrak has a lot to 
deal with. Since its inception in 2000, Amtrak has been plagued 
with a host of problems. First, there were problems with 
construction. There were delays, and of course the overruns in 
cost in delivering this train.
    But let me say that I do not think the entire problem was 
Amtrak's. The Northeast Corridor Maintenance Company, under the 
auspices of the consortium, is responsible for maintaining 
these trains, not Amtrak. The consortium, however, never 
discovered the cracks. I understand that there is evidence that 
the consortium should have been inspecting and replacing brake 
discs with cracked spokes and hubs, but this never happened. In 
fact, a technical manual and a separate service bulletin that 
was sent to the consortium both recommended routine inspections 
and replacement of cracks, but these recommendations were 
ignored.
    I feel that if FRA inspections had not found the cracks in 
these spokes, the consortium would not have identified these 
problems until it was too late, until a major accident had 
occurred. I believe, however, that this tragedy was a blessing 
in disguise. But I wish that the Administration, who has 
proposed separate operations from infrastructure in a so-called 
Amtrak Reform plan, this crisis is the perfect example of why 
this is a bad idea.
    About a month ago, this Committee visited Europe, the 
British system. We found out that the separation of maintenance 
and operations was a major reason why they had several 
disastrous accidents, and now the whole system is going forward 
with trying to pull it back together. We do not have to make 
that mistake here in the United States. We need to work 
together to ensure that we have quality transportation rail 
service in the United States.
    I yield back the balance of my time.
    Mr. LaTourette. I thank the gentlelady very much.
    Mr. Mica?
    Mr. Mica. Thank you, Mr. Chairman and Ranking Member. Both 
of you I think quoted the story that is in the Washington Post 
today. Let me just correct the story. It starts out: ``The 
brake problem that sidelined Acela high speed trains last month 
appears to be the result of fatigue in the metal components.'' 
First of all, that is a gross misstatement, because what has 
happened here is not the failure of a brake system, it is the 
failure of Amtrak to be able to properly run a high speed 
system or high speed corridor. It is difficult when you have a 
dysfunctional organization trying to operate.
    Then it says--let me read the next part. ``Amtrak is losing 
a million dollars every week that the Acela express train is 
out of service and faces a serious cash crunch to continue 
operations to the end of the fiscal year.'' Even if Acela were 
running, it would still face similar losses.
    Then let me read, ``Meantime, the April 15th shutdown of 
the high speed service continues to inconvenience thousands of 
commuters on Amtrak's northeast corridor, which runs from 
Washington to New York.'' Now listen to this, this is the best 
part. ``Amtrak has substituted more regular speed Metroliner 
service between the three cities.'' Acela only ran between one 
and two miles an hour difference than the Metroliner.
    So there are a number of errors and misconceptions that the 
press is reporting today. In fact, ladies and gentlemen of the 
Subcommittee, this is probably the most costly and mismanaged 
rail project in the history of passenger rail service, not only 
in the country but probably the world. Three point two billion 
dollars spent to date. In fact, if you look at the costs over 
the period of time, it is subsidized to the tune of about 
$14,000 per passenger that we are running on this. We probably 
could have bought limousines and brought them back and forth 
from Washington to New York and Boston cheaper.
    This is frightening, because it was not Amtrak that 
discovered the flaw in this braking system. It was not the 
vendor, who has been paid millions of dollars and is also 
responsible. But what it was in fact was FRA that accidentally, 
as I understand it, found this flaw. What you have here, ladies 
and gentlemen, is again, a problem from the very start in the 
structure and Amtrak trying to run a high speed corridor.
    Even if we fix this, they won't get it right. First of all, 
the bungled the acquisition, they bought the wrong equipment. 
They changed the specs. Read the history of it. They have 
bungled management. I could go on and detail that, but it is 
almost farcical. They have bungled oversight. Again, FRA found 
this, neither the vendor nor Amtrak found this error that could 
have resulted in a great tragedy.
    I am a strong supporter of high speed rail system and 
service, not only for the northeast corridor but across the 
United States. It will take billions and billions of dollars to 
build these. I have no problem with supporting that corridor, 
the northeast corridor or additional corridors which we 
desperately need in at least a dozen approved corridors across 
the United States. But I'll be darned if I will give it to 
people with a record like this. We need to take Amtrak out of 
the high speed service, turn it over to a consortium of the 
States and the private sector. We can run a service that will 
relieve our congested airports and highways.
    Finally, Mr. Chairman, I am going to ask, I have looked at 
this whole problem, the whole bungled acquisition. One thing 
that frightens me is the hosing that the taxpayers have taken 
in this entire matter of again, a bungled management oversight 
and acquisition program. I have found that tens of millions of 
dollars have been spent in legal fees, some for in-house and 
some for contracted consulting service. I have a letter today, 
and I will ask for that to be part of the record, I am going to 
ask the Inspector General of the Department of Transportation 
to investigate and review all the expenses, not just on this 
braking system, but on this entire failed enterprise, report 
back to me and also to the Subcommittee.
    So with that, Mr. Chairman, again, I am a strong supporter 
of high speed service alternatives for passengers on rail, and 
look forward to working with you and hopefully changing this 
whole structure, not just the brakes. Thank you.
    Mr. LaTourette. I thank the gentleman for his observations. 
Without objection, your letter will be made part of the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2496.092
    
    Mr. LaTourette. Mr. Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman. I deeply 
appreciate the Committee having the hearing today to focus on 
these issues. I hear my good friend from Florida talk about 
turning something over to Amtrak and talking about their 
record. Well, the people, in my judgment, with the record that 
is not something that I am proud of is the record that Congress 
has of unrealistic expectations and failure to fund an adequate 
capital program.
    The people that I am concerned about and one of the 
questions I would like to explore in the course of this hearing 
deals with, what is it that forces Amtrak to have to, as Ms. 
Hecker has in the first page of her testimony, talk about the 
fact that they can't buy something off the shelf. There are 
products that work all over the world with proven records of 
safety. Why is it that Amtrak is forced to have to assemble 
something that has serial number 0000001 in the backdrop of 
Congress and others' steady drumbeat to force Amtrak to move 
quickly over tracks where there is not adequate capital 
investment and where Congress refuses to give them the 
opportunity to be flexible in terms of the management. And they 
are still liable, in some cases, for costs that date back far 
before Amtrak was even formed.
    So Mr. Chairman, I appreciate the hearing. I appreciate the 
fact that we are going to be getting at some short term 
concerns about these safety issues. I too am pleased that we 
got ahead of the curve and I am looking forward to answers 
about maintenance and expectation.
    But I am hopeful that before this Subcommittee finishes its 
job that it stops having Amtrak service as some sort of 
punching bag and that we look at the forces that require us to 
have these train sets established in the first place and the 
unrealistic expectations and the pressures that are brought to 
bear with the regulatory agencies. I have had experience in my 
hometown when we are trying to get rail initiatives that we 
can't buy off the shelf equipment from Europe for smaller scale 
projects that add cost and complexity, and as near as I can 
tell, don't add safety.
    So I think we ought to get at the regulatory regime and the 
context in which this goes. I will submit a more extensive 
statement, even thought it is hard to believe. But I want to at 
least put this on the record as we move forward.
    Mr. LaTourette. I thank the gentleman very much.
    It is the Chair's intention to permit every member to make 
an opening statement, particularly those in the northeast 
corridor who have great concerns with Acela. But staff has 
advised me that Mr. Jamison and his wife are expecting a child 
any minute. So if we could sort of move through it 
expeditiously, I would appreciate it.
    Mr. Westmoreland? No statement. Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Chairman, I thank you for holding this hearing today 
regarding Amtrak's Acela. This is an issue of particular 
concern to me, given that my district contains Penn Station in 
New York City, by far the largest Amtrak station in the 
country. I am personally a frequent rider of Amtrak from New 
York to Washington, practically every week that Congress is in 
session. So I have a great person interest in seeing Amtrak's 
Acela back in operation and running in reliable service.
    We know that Amtrak has problems. While I am interested to 
hear from the witnesses today as to the particular causes of 
this particular problem, we know the larger answer to the 
larger problem is quite clear. I hope that the Acela issue is 
not used as an excuse to further dismantle the railroad.
    The Administration has long seen problems with Amtrak and 
decided to chuck the whole thing. The Administration wants to 
derail the system by breaking Amtrak up into small pieces, 
gutting protections for railroad workers and trying to split 
the northeast corridor, the jewel of the Amtrak system, in a 
way that has failed spectacularly elsewhere, most notably in 
Great Britain.
    And in a spectacular display of contempt for the northeast 
part of the country, the Administration has proposed spending 
no money on Amtrak this year in order deliberately, 
intentionally to drive it into bankruptcy. This Administration 
looks at Amtrak and says, if only we had better management, or 
if only we busted the unions. Or if only we let private 
companies come in and run the trains. If only we had 
competition, then we would have a profitable passenger rail 
network and everything would work itself out.
    Apparently the Administration forgets, as do some members 
of this panel, that the reason Amtrak was created in the first 
place was because the private railroads begged the Government 
to stop making them carry passengers. We took these money-
losing routes off the hands of the private railroads with their 
inadequate infrastructure and attempted to create a new 
railroad. Not surprisingly, things have not gone entirely 
smoothly.
    I believe the answer is actually quite simple. First, 
people need to stop making the false assumption, the absurd 
assumption that transportation systems are profitable. The 
airlines and the highways are both heavily subsidized by 
taxpayers, and they should be. Because they provide a vital 
public service and they are critical to our economy. But 
neither of them is profitable, at least not without significant 
public investment. At the very least, they are not self-
sufficient. We should not try to require Amtrak to be self-
sufficient, either. It is impossible, it is illusory. It does 
not make good sense as transportation public policy and the 
requirements that this Congress has imposed on Amtrak, to 
promise to be self-sufficient, are requirements to be 
hypocritical and self-defeating.
    Second, we need to finally start investing adequate 
resources in Amtrak to allow the railroad to provide stable, 
reliable service. One of the reasons, I believe, perhaps the 
chief reason for the problems we are having with the Acela now 
is that the prototype testing was rushed and skimped on to a 
large extent to save money, because they did not have the 
funds. We spend approximately $50 billion a year on highways 
and aviation, but only about $1 billion on Amtrak, even though 
rail is a more energy efficient mode of transportation.
    Mr. Menendez and I are working on legislation called TRAIN-
21 that would provide Amtrak the funding it needs to improve 
service in its current system, as well as provide a funding 
mechanism to upgrade high speed corridors around the country. I 
believe that positive measures that invest in rail, such as 
TRAIN-21, are what is needed to keep Amtrak stable, or rather 
to restore it to stability, and to give it the resources it 
needs to get the Acela back on track and to get better systems 
in place.
    I hope this hearing can be useful in determining exactly 
what steps need to be taken to fix this problem in the most 
efficient manner possible. I look forward to working with my 
colleagues to make sure that Amtrak has the resources it needs 
to do the job and does not fall prey to the kind of delusions 
that the Administration and some members of this panel that we 
heard a few minutes ago are subject to.
    Thank you, Mr. Chairman.
    Mr. LaTourette. I thank the gentleman.
    Ms. Brown tells me that Mr. Cummings, you are next in 
seniority. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to associate myself with everything that has been 
said by my Democratic colleagues. I want to thank you, Mr. 
Chairman, for calling this hearing today to enable us to assess 
what must be done to ensure that Acela does not continue to be 
plagued by service interruptions.
    Acela is critical to Amtrak's revitalization and to 
transportation on the northeast corridor. We must ensure that 
Acela is a reliable service. Unfortunately, the history of 
Acela has been one of disappointment almost from its inception. 
The scheduled start date of Acela service was delayed by more 
than one year, and when the service finally did begin, the 
first Acela train arrived at its destination more than 10 
minutes late. The current problems with Acela's brake system 
are just one in a series of equipment failures that have 
resulted in service interruptions since 2001.
    A brief review of the history of the creation of Acela 
reveals essential lessons that must be considered by the 
Subcommittee as we examine what should be done now to improve 
Acela. After committing to develop high speed service, Amtrak 
examined high speed trains already in use in Europe. However, 
according to statements by Amtrak board members reported in the 
papers at the time, Amtrak ultimately chose a new and 
completely untried system because it came with an attractive 
financing package provided by the Canadian government. Amtrak 
ordered the first Acela trains even before the Federal Railroad 
Administration had promulgated safety regulations for such Tier 
II trains.
    When these regulations were announced, they required 
Acela's engines to be heavier than any other high speed train 
in the world. Compliance with these regulations also required 
Amtrak to make extensive design changes. Despite the fact that 
Acela design was new, Amtrak apparently felt pressure to put it 
into service quickly, and therefore decided not to build and 
test a prototype. As a result, design flaws, such as the impact 
of its weight that might have been resolved before Acela was in 
revenue service, are now being addressed through these repeated 
service suspensions.
    What happened between the time the promise of 
groundbreaking high speed rail service was made and the delay a 
year later than planned that this troubled train was put into 
revenue service? To begin with, Amtrak was pressured to develop 
its high speed service as quickly as possible, but the effort 
was underfunded. Unfortunately, these pressures shaped Amtrak's 
choices, starting with the choice of the Acela design itself, 
which could be described as a choice of funding over function.
    Further, the Administration and Congress committed to 
develop high speed rail service without committing to spend the 
full amount necessary to create the track infrastructure needed 
to support truly high speed service. As a result, Acela is 
designed to travel at 150 miles per hour but it is able to 
achieve that speed on less than 35 miles of track along the 
entire northeast corridor. Consequently, the introduction of 
Acela has not reduced the trip time between New York and Boston 
to less than three hours, as required by the 1992 Amtrak 
Reauthorization and Development Act.
    Finally, unfortunately it seems that Amtrak failed to 
manage properly the limited funding it was given to upgrade 
track along the northeast corridor. A report issued by the 
well-respected GAO in February 2004 found that ``Neither Amtrak 
nor the FRA exercised effective management or oversight of the 
northeast high speed rail improvement project.'' The GAO report 
also found that Amtrak failed to develop a comprehensive 
management plan for its infrastructure project.
    In other words, the story of Acela train is the story of 
Amtrak itself. Amtrak has been given competing goals over the 
years, sometimes being told to focus on providing the broadest 
possible service and at other times being told to obtain 
financial self-sufficiency. Throughout its existence, however, 
it has been underfunded and the capital infrastructure on which 
it operates is still in need of extensive upgrades and repairs.
    So, Mr. Chairman, we must set clear goals for Acela. We 
must fund it adequately and we must be vigilant in demanding 
that Amtrak respond to our investment by improving its own 
management and service efficiency. We cannot continue to repeat 
our past mistakes regarding our Nation's inter-city passenger 
rail service.
    With that, I yield back.
    Mr. LaTourette. I thank the gentleman.
    Mr. Oberstar?
    Mr. Oberstar. Thank you, Mr. Chairman.
    I think it is important to have this hearing. I hope it 
does not evolve into a hearing on whether Acela or whether 
Amtrak, but stay focused on the issue of what went wrong here 
in this very important aspect of the Acela technology. I am for 
Amtrak, said it many times, I don't need to repeat all that. I 
think the Acela was a great innovation in American rail 
technology. It still leaves us a third world country in terms 
of high speed passenger rail transportation.
    But this technology of Acela, Mr. Chairman, has had 
repeated problems. What we are confronted with today as the 
subject of our hearing is the disc brakes, or brake discs. This 
is not a new issue of technology. Fifteen years ago, a DC-10 
crashed in Iowa, crash landed in Sioux City after losing a disc 
in the tail engine. Titanium, not just any piece of metal, 
highest quality metal cast anywhere in the industrialized 
world. It failed.
    We can take lessons from the DC-10 experience and apply 
them to Acela as we do throughout aviation. Redundancy in the 
manufacturing process and redundancy in the oversight and 
conduct and oversight of maintenance.
    There are two issues here. One is the casting of the brake 
discs themselves, and the maintenance conducted on those 
brakes. Let me deal with the first issue. The bible of steel, 
which I keep in my office, Making, Shaping and Treating of 
Steel, the U.S. Steel Company, has an entire chapter on 
castings of steel and iron. What is critically important are, 
or factors that are critically important are the temperature at 
which the steel is cast, the rate at which the cast is cooled, 
the gating through which the steel is poured from the ingot 
into the mold, and the purity of the product itself.
    As far as I can tell from the testing done so far, neither 
Bombardier-Alstom nor Amtrak has gone far enough into the 
technology of the casting of this steel. That is why I have 
asked for further inquiry into this matter of the original 
equipment manufacturer's technical manual. I have asked the 
Amtrak inspector general to deliver the technical manual on 
brake disc rotors. I think we will, I will probe, of course, in 
this hearing, the extent to which oversight has been conducted 
by the Federal Railroad Administration, Amtrak itself and its 
contractor, Bombardier.
    The failure in the DC-10 was a failure both of casting and 
of oversight. There have been no accidents yet on Acela, been 
no injuries or fatalities, thank God. But there were 110 lives 
lost in that failure of the United Airlines DC-10 in Sioux 
City, Iowa. Fine, fine submicroscopic hairline crack, 
propagated over a period of time to cause catastrophic failure. 
The discs separated, the engine went through the hydraulic 
lines, landed in a cornfield, was recovered by NTSB. And the 
metallurgical analysis done in meticulous detail, notably 
absent in the inquiries so far, and in that respect this 
hearing may be somewhat premature, but nonetheless, it is 
important for us to stay on top of this matter.
    The same principle applies here. You have a fine crack, and 
it propagates. Then you are in the presence of a real or 
potential catastrophic failure. The design life of the brake 
disc rotors, from all the documents I have read, and I have 
read a good many of them, 1 million miles. But the cracks 
appeared much earlier, 300,000, 400,000, 650,000 miles. Now, if 
this vehicle had been traveling at true high speeds of 175, 185 
miles an hour, it very likely could have had catastrophic 
failure.
    So we have to review in considerable detail not only the 
casting, the manufacture and the specifications for this part, 
but also the conduct of maintenance. That is critical to 
safety. That is where I think there has been a lapse.
    Back to the casting, you have to look at the shape, the 
metal specifications, chemical composition of the molten metal, 
whether there is a possibility that sulfur wax from the molds 
could have propagated into the molten metal, creating gating, 
risering and whether in fact the metal was heated to its 
required specification, 3,000 degrees Fahrenheit. Until we 
understand all of those issues, we are not going to fully 
understand what has gone wrong here. Those are the issues, 
should be the primary factors.
    Then I think we have to look very carefully at the 
qualifications of the maintenance personnel, their skill in 
detecting submicroscopic cracks in the hubs, the connections of 
the spokes. And I think we need to oversee Amtrak's and 
Bombardier's inquiry into this process. I think we need some 
outside metallurgical consultants to take a close look at this 
issue, Mr. Chairman.
    I thank you very much for the time.
    Mr. LaTourette. I thank the gentleman very much for his 
observations. One of the reasons that members on both sides of 
the aisle benefit so greatly from the distinguished Ranking 
Member's institutional knowledge and other knowledge, I would 
venture to say you are probably one of the few members that has 
the steel bible here on his bookshelf in Washington, D.C.
    [Laughter.]
    Mr. LaTourette. Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman, for holding this 
hearing and for this opportunity.
    Mr. Chairman, if we can accomplish one thing at today's 
hearing, I hope that we can correct the misperception, at least 
my belief a misperception, that this whole problem was Amtrak's 
fault. Let's be clear. Amtrak did not design the brake discs, 
they did not produce them, and everything that I have seen at 
least to date indicates that they had no knowledge of any of 
the potential problems until the cracks were discovered. Amtrak 
has in fact, in my view, performed admirably by moving quickly 
in taking the Acela out of service, even though they knew it 
would cost millions of dollars in lost revenue.
    I believe the real problem is the combination of 
unrealistic expectations and insufficient support that Amtrak 
has struggled with since its creation. Thirty-four years of 
funding Amtrak does not even equal one year of highway funding. 
We should not be surprised that Acela has suffered a number of 
embarrassing setbacks since they were encouraged to rush a high 
speed train into service in the name of becoming profitable. 
Instead of being able to select a train purely on its merits, 
they were forced to take a largely untested design because it 
had the most attractive financing deal.
    To solve Amtrak's problems, we do not need to sell off the 
northeast corridor, force the States to pay the whole cost so 
that their State transit systems that largely run, as in my 
State of New Jersey, on Amtrak's lines and would leave tens of 
thousands of travelers either stranded or with increasingly 
high fares, or break it into a number of smaller companies, I 
don't think those are our solutions. Those solutions, in a 
similar set of circumstances, were utter failures in Great 
Britain.
    What we need to do is make the serious financial commitment 
that should have been there from the beginning. We need to 
provide Amtrak with a stable and robust funding source so that 
it can fix its backlog of deferred maintenance, run more 
trains, run them faster and run them on time. To that end, I 
will soon be introducing my TRAIN-21 legislation, along with 
Congressman Nadler and others, that provides Amtrak the money 
it needs, establishes a new State matching program designed to 
improve the quality of train service in rail corridors 
throughout the country.
    Amtrak is a national transportation asset that provides a 
vital service for the 25 million people who ride it each year. 
It is time we treated it as such.
    As someone who sits right across from New York City in the 
context of my congressional district, and who lost many 
citizens on September 11th, it is astounding to me that we do 
not view Amtrak as a vital component of national security in 
the need for multiple modes of transportation in the 
eventuality of a terrorist attack. On that fateful day, when 
September 11th took place, the only way out of downtown 
Manhattan was ultimately through a ferry system into New 
Jersey. Days later, when the airlines were still grounded, it 
was rail that connected cities one to each other. Multiple 
modes of transportation are critical in the post-September 11th 
world. Amtrak is part of that.
    We started the process, I hope, of understanding the value 
of Amtrak two weeks ago when the Committee reported out the 
Amtrak Reauthorization and RIDE-21, and we continue today by 
trying to figure out how Amtrak can get its most lucrative 
train back on track. I hope we can get some answers about what 
caused these brake problems, and I look forward to figuring out 
exactly who knew what and when.
    Thank you, Mr. Chairman, for holding this hearing.
    Mr. LaTourette. I thank the gentleman very much.
    It is now time for our first panel. I want to thank all of 
the witnesses and remind you all that we have received your 
testimony, so has the Washington Post, apparently. But we have 
received your testimony and reviewed it. Because of the 
importance of this, we are not going to be real sticklers on 
the five minute clock. But if you could confine your comments 
to as close to that as possible, we would appreciate it.
    On the first panel is Robert Jamison, the Acting 
Administrator and expectant father from the Federal Railroad 
Administration; Fred Weiderhold, Jr., who is the Inspector 
General for Amtrak; and JayEtta Hecker, who is the Director of 
the Physical Infrastructure Issues section of the GAO. Welcome 
to you all, thank you for coming today, and thank you for 
providing us with your testimony ahead of time.
    Mr. Jamison, when you are ready.

 TESTIMONY OF ROBERT D. JAMISON, ACTING ADMINISTRATOR, FEDERAL 
  RAILROAD ADMINISTRATION; FRED E. WEIDERHOLD, JR., INSPECTOR 
    GENERAL, AMTRAK; JAYETTA Z. HECKER, DIRECTOR, PHYSICAL 
    INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Jamison. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate the opportunity to appear before you 
today, on behalf of Secretary Mineta, to discuss the recent 
developments concerning Amtrak's Acela service. As you have 
already mentioned, Mr. Chairman, an FRA Safety Specialist, Mr. 
Rich Thomas, first detected cracks on the spokes of an Acela 
train disc brake rotor on the evening of April 14th. The 
detection occurred while FRA personnel were closely inspecting 
a trainset that had been involved in test runs. The test runs, 
unrelated to the brake issue, were being conducted to ensure 
safe operating performance of the Acela at higher speeds in 
curves than are currently permitted.
    While conducting a very thorough post-test inspection of 
the brakes on the trainset, Mr. Thomas noticed what appeared to 
be rust from a small mark on one of the rotor's spokes. On 
closer examination, the mark proved to be a crack. After the 
initial discovery of the cracks, the FRA inspectors, along with 
personnel from Amtrak and the Acela maintenance contractor, 
then inspected the other trainsets. As the inspections 
concluded that evening, it became clear that a significant 
percentage of the disc brakes had similar cracks. After 
discussions with FRA personnel that night, Amtrak suspended 
Acela service immediately on April 15th and ordered a detailed 
inspection of the entire Acela fleet for the presence of such 
brake rotor cracks.
    The good news is, as has already pointed out by members of 
this Subcommittee, these cracks were detected before they led 
to a catastrophic failure of the rotor with potentially very 
serious consequences. My staff and I met with Amtrak President 
David Gunn and his staff on April 15th, and again on April 20th 
to discuss the problem and potential solutions. Amtrak formed a 
working group consisting of its staff, its contractors who are 
responsible for Acela maintenance, the suppliers of the 
equipment and several technical experts to determine the cause 
of the problem and to explore solutions to the problem. FRA 
experts are fully cooperating with that effort. Amtrak has no 
intention of running the Acela equipment with cracks in the 
disc brakes, and all concerned understand that FRA will not 
permit that to happen.
    FRA has a broad safety program. Our efforts to ensure the 
safety of the Acela service are but one component of a 
comprehensive railroad safety program. Although the railroad 
industry's overall safety record is very positive and most 
safety trends are moving in the right direction, very serious 
train accidents still occur, and the train accident rate has 
remained stubborn. To meet these challenges, FRA is targeting 
its regulatory program on the most frequent causes of train 
accidents. We are focusing our inspection resources on the 
areas of highest risk, and we are accelerating our R&D efforts 
that have the largest potential to mitigate those risks.
    More than 70 percent of all train accidents are caused by 
either human factors or track defects. FRA is taking aggressive 
action to address these leading causes of accidents.
    One component of our program is a focused national 
inspection plan. FRA recently began phasing in this national 
inspection plan to improve the agency's allocation of 
inspection resources. The NIP will use sophisticated trend 
analysis of inspection and accident data to produce an optimal 
distribution of resources to minimize fatality, injury and 
accident rates. We began implementing the NIP last month in the 
first two disciplines of operating practices and track, which 
correspond to the leading causes of accidents.
    FRA closely monitors all aspects of Amtrak safety, as it 
does for all freight and passenger railroads. Amtrak's safety 
record is comparably quite good. In 2004, Amtrak's rate of 
accidents, 2.8 per million train-miles, was well below the 
industry average of 4 accidents per million train-miles. 
Contrary to the industry trend over the last two years, 
Amtrak's human-factor-caused accidents have fallen 
substantially, comprising 20 percent of Amtrak's accidents in 
2004. Employee injury rates, particularly in the transportation 
department, also improved in 2004.
    FRA will continue to monitor Amtrak very closely and assure 
that its generally positive safety record is maintained and 
does not deteriorate.
    As mentioned previously, we are working very closely with 
Amtrak as the railroad tries to determine a long-term solution 
to Acela's disc brake problem. Public safety is of utmost 
importance, and we will continue to ensure that the solution 
that Amtrak adopts fully protects Acela's passengers and crews. 
We will also ensure that Amtrak's implementation of its 
equipment inspection program for the Acela trainsets is 
improved so as to ensure that any such safety-critical problems 
are found and corrected well before they reach the dimension 
that this problem had reached by the time that we detected it.
    I believe that the extra effort that has already been 
pointed out, that was displayed by FRA Safety Specialist Thomas 
and the other FRA personnel involved in the Acela brake issue, 
quite possibly averted a very serious accident. Those efforts 
are emblematic of the dedication of the FRA employees to their 
safety mission. We will continue to exercise that level of 
effort in working with Amtrak to ensure that the resumption of 
Acela service is safely done.
    I look forward to answering any of your questions.
    Mr. LaTourette. Thank you very much, Mr. Jamison.
    Mr. Weiderhold, thank you for coming, and we are ready to 
listen to you.
    Mr. Weiderhold. Good morning, Mr. Chairman and members of 
the Committee.
    Mr. Chairman, with your permission, I have two requests. 
One request, I have a written statement that I would like to be 
submitted for the record.
    Mr. LaTourette. Without objection, so ordered.
    Mr. Weiderhold. The second request is to allow Mr. Oberstar 
to be hired on my staff, given his knowledge of steel. I think 
he is exactly on point when it comes to some of the issues that 
my office is very concerned with. I have an engineering degree, 
but it is about 30 years old. I know enough to be dangerous on 
that, sir, but I would be pleased to work with you on that 
issue.
    I want to kind of echo the comments of some of the members 
in recognizing the FRA. I have worked with Mr. Thomas for a 
couple of years. I think that when we interviewed him, I asked 
him, I called him the following morning and I said, Rich, how 
did you find the crack. He said, Fred, we ended the run, I go 
under the train, and it was just out of the corner of my eye I 
saw a rust spot, and it didn't look like a surface crack. I 
think he pushed at it a little bit, and it had some 
indentation, there was rust, indications of rust. So he quickly 
called down Steve Play, who joined him under the train and they 
proceeded to check out and through visual inspections they 
found a number of cracks in spokes.
    Really what we want to do is to figure out kind of why it 
took so long for the FRA or anyone to notice those cracks 
before some type of corrective action was taken.
    I also want to commend the FRA, because as soon as this 
occurred, they ordered, and Amtrak fully cooperated with, a 
fleet-wide inspection of all the brake discs across the system 
on the non-Acela fleet. There are many, many more cars out 
there that needed to be inspected. The FRA executed that within 
a couple of days over the fleet. I have reviewed their reports 
and their reports make clear that there is no systemic problem 
with Amtrak cars, the non-Acela Amtrak cars. But I think the 
FRA should be recognized for that quick effort.
    I do want to commend Amtrak. Within hours after being 
alerted with the FRA and speaking with the consortium, Mr. 
Crosbie, who is their senior VP of operations, I think about 
12:30 in the morning made the decision to ground the fleet. 
That was certainly the right decision in hindsight. I think 
Amtrak did a very commendable job and acted in the best 
interests of everyone in making that timely decision.
    Also, Amtrak did institute very quickly a recovery stage 
with respect to bringing the Metroliners back. I think that is 
good news, because what has happened is, there has not been any 
serious degradation of riders in the northeast corridor. I 
think regardless, in listening to the members, regardless of 
the positions on Acela as to how we got here, I think Amtrak is 
a common carrier, it does have common carrier obligations, it 
does need to keep its trains running, and it was able to 
accomplish that.
    You will hear later on a lot of discussion about the fix. I 
think everybody is very interested in getting to the fix. We 
are concerned about that. We watched the various vendors in the 
supply chain, the Knorr Corporation, Fadely Transport, SAB 
WABCO and others working very hard daily, seven days a week, 
trying to figure out what went wrong. Likewise, the 
manufacturers' consortium of Bombardier and Alstom have been 
working very hard and have dedicated staff and a lot of time to 
getting to the fix.
    But I want to elaborate a little bit more, and I think the 
members have all touched on this, about what more you need to 
do. And this gets to the OIG's role.
    While the fix is a priority, I think it is our 
responsibility to examine the entirety of the root causes of 
the failure. The root cause does not stop at just finding the 
reason for the failure. There are, as this Committee is very 
familiar with, what I would call human factor issues that the 
NTSB is very familiar with, and that is, why did certain people 
make some decisions and why did some people make other 
decisions with respect to the brake discs.
    Like you, we want to know why it took so long for the 
cracks to be discovered. There were many people involved in the 
inspection and servicing of the wheel sets onto which the brake 
discs are affixed. Why did so many brake discs with cracks 
passed unnoticed?
    We also want to know who was aware of the cracking problem. 
Did the responsible person or persons act differently because 
an action or non-action would result in financial harm? Are 
there organizational impediments to information sharing?
    Sometimes people make bad decisions with good intentions. 
We need to know if that happened here.
    Very briefly, because I know we do not have a lot of time 
in the opening statements, I would like with your permission, 
Chairman LaTourette, at least talk about what we have found so 
far to kind of get the ball rolling. First, with respect to why 
the cracks went unnoticed by the maintainers and the 
inspectors. We have two possible explanations for that, if you 
will bear with me.
    First, the cracks are very hard to see. We had some of the 
Committee staff out at Ivy City looking at the Acela trains. I 
took them under the trains, they viewed the wheel sets off from 
under the cars. I think even with their, in some cases, younger 
eyes they would have had a hard time finding those cracks.
    We do not have an actual disc for you today. They are 
fairly large, and as Mr. Oberstar points out, this is poured 
cast steel, they are pretty heavy. What I do have is a diagram 
over here, and there is a diagram attached to the back of the 
testimony that kind of gives you an orientation of the disc. 
Essentially you've got, if I can reach it over here, you've got 
the disc itself, you have the hub in the center, you've got six 
spokes that kind of radiate from the hub and you have this 
space here which is the friction ring for the brake pad to 
reply. That's how the wheels are stopped.
    You should also understand, I think Mr. Oberstar will 
appreciate this, that there are a number of forces acting on 
the disc. There are lateral forces due to shocks and due to 
centrifugal force. This is normally measured in g-forces, as g-
forces is the pull of gravity. I think people who serve on the 
Aviation Subcommittee are intimately familiar with what a g-
force is. There are vertical forces that act on that disc as a 
result of the train moving up and down on the tracks, different 
amplitudes of forces that are applied. There are radial forces 
that are applied onto the disc. This disc is designed to heat 
up.
    As you can well imagine, you have a lot of weight, going at 
speed, and the brakes are applied, this is carbon on steel, 
there is a heat buildup. So the discs have a design, 
essentially, to expand when they are hot and contract, go back 
into compression, when they are cold.
    There are also brake torque forces around this in a 
circumferential direction of the brake disc. The possible 
reasons for the spoke cracking, the loads are higher than 
expected, or the discs simply don't meet the specification.
    I think Mr. Jamison touched on how Rich found the crack in 
the disc. I won't expand on that too much.
    I do have, and I think I put it up on the dais, Mr. 
Chairman, I do have some pictures of the cracks in the disc. 
Some of those were passed around, some of those are in color. 
You can see from some of these, I think it should be up there 
that some of these cracks are hairline and some of these cracks 
are a lot more visible to visual inspection.
    The second reason the cracks passed unnoticed is a little 
bit more disconcerting. If I can refer you to another exhibit, 
another chart, I want to walk you through the brake disc supply 
chain and the organizational relationships involved in the 
acquisition, installation and maintenance and servicing of the 
disc. You can refer to, there should be a handout for you on 
the chart that looks like an organization chart over there. I 
am sorry, Mr. Chairman, next time I'll have this in Power Point 
so we can get it up on the screen.
    But what you see in that chart is essentially the supply 
chain going from SAB WABCO, who is the OEM Of the original 
manufacturer of the brake disc part, as a sub to Knorr 
Corporation, that is the owner of the brake disc assembly. They 
have a contractual relationship with the consortium that is 
made up of Bombardier and Alstom. They in turn create a wholly-
owned subsidiary, that's the NEC-MSC, the Northeast Corridor 
Maintenance Service Corporation, who in turn issues a 
preventive management work order, which we would call a 
checklist, which is used, which goes to the shop floor.
    The only other box on that chart, which is a very important 
box, is a company called ORX, very reputable company just 
outside of Altoona, Pennsylvania. ORX was the original 
assembler of the wheel sets. They have what we call a 
horizontal press. This is where the wheels are pressed onto the 
axle, the brake discs themselves are pressed onto the axle. So 
they were there when the wheel sets were originally assembled 
and when there is wear on the wheels or on the brake discs, the 
wheel sets are removed, they are sent to ORX. ORX inspects 
them, refurbishes them and then returns them back to NEC-MSC.
    Within one day of the brake disc spoke cracks being 
reported, Amtrak management and the OIG were also provided with 
an excerpt from an inspection procedure manual prepared by the 
disc manufacturer, SAB WABCO, in November 2004. This procedure 
included steps for crack inspection in the hub and spoke areas 
of the disc at least every 20,000 kilometers.
    There is another chart, if I could get it up, this chart 
becomes very important very quickly. This is an excerpt from 
the manual that Mr. Oberstar requested. These are instructions 
that are developed by the manufacturer at the get-go when the 
part is made. What they include in their detailed inspection, 
in the first step, is to look for cracks in the hubs, cracks in 
the connection spokes hubs and the friction ring. So there is a 
contemplation on the part of the OEM that there will be 
periodic inspections. Accompanying this procedure, there is 
also an inspection schedule requirement for this 20,000 
kilometers, or about 12,400 miles cycle for the brake discs to 
be inspected, and specifically to be inspected for cracks.
    What happens, when you go back to the organization chart, 
what happens is you have this large technical manual that is 
out there, 66-page technical manual, that has this step to 
inspect for cracks. The technical manual goes up and it is 
boiled down into something a little bit smaller. It is a 
service bulletin. In the service bulletin, the procedures 
shift. That detailed information, to inspect for the cracks, 
basically is kind of lost in translation. What happens when you 
get to the service bulletin, which is a shorter document, is 
there is only a one-line reference to go to the specific 
procedures for looking at the cracks.
    That service bulletin in turns makes its way back over to 
the maintainers at the NEC-MSC. It makes its way into the 
training documents, into the training curricula for the 
maintainers. But in this case, it does not make it to the shop 
floor. So there was an expectation on the part of the OEM that 
there would be periodic inspections. But because of a breakdown 
in the way the procedures were promulgated and worked their way 
through the system, they never make it to the person that is 
actually doing the inspection. That is a major finding, that is 
a lesson learned, that is something that has to be corrected, 
especially for a safety-critical part.
    Mr. Oberstar. Mr. Chairman, could I ask Mr. Weiderhold just 
to repeat that comment about only one line in the manual that 
deals with that?
    Mr. Weiderhold. Yes, sir. What we found was, when we 
started looking at these detailed procedures, you want to start 
at the beginning. We had found these procedures in the SAB 
WABCO manual. When we traced that specific recommendation to 
look for cracks and spokes up the supply chain and over to the 
maintainer, what we found was it was only referenced in the 
service bulletin. So when you get to, this is not 66 pages, but 
this is probably 30 pages worth of instructions that are issued 
by Knorr, when you get to a very critical stage on the axle-
mounted disc, the part that I have highlighted here, which is 
just one line, refers you to this procedure.
    Now, what happens as you get further into the service 
bulletin, which is what the maintainers use, within the service 
bulletin there are pictures of the disc and they tell you what 
to check for. They tell you what to check for what are called 
the normal wear and tear on the friction surfaces, which is 
what peoples' eyes are drawn to. When you get under the train 
and you look at all the gear down there, you kind of look for 
the shiny surface, because that gets the most wear and tear.
    If you don't know to look at the hub or to look at the 
spokes, and if you're not trained to look at that, then you are 
not going to look at it. There is carbon dust flying around, 
there is a lot of things on the running gear, and that is one 
of the reasons why those cracks went unnoticed for as long as 
they did. So we have a breakdown in a critical inspection 
process, and we have a breakdown in the safety critical part.
    Next, I think one of the big questions, and the questions 
that you asked me, Mr. Chairman, was who is responsible or who 
knew what when. Let me kind of tell you where we are to date. 
From all of our interviews and document reviews thus far, we 
have no evidence that Amtrak was ever made aware of the brake 
disc spoke and hub cracks prior to April 14th, or was even 
aware of the manufacturer's detailed procedures for brake disc 
inspections. We have spoken with Amtrak employees from the shop 
floor through first line management to senior managers, and 
thus far no one has stated that they had any knowledge of brake 
spokes cracking prior to April 14th.
    As is our practice, we basically took this chart, we looked 
at this organizational layout, we looked at the relationship 
among the supply chain and our maintainer, and then we began 
our interviews. Our first interview was a visit to ORX, that 
organization on the bottom right hand, who basically seize the 
wheel sets off the train and should have, should have the best 
eyes to put onto the brake disc.
    When we visited ORX, we were very impressed with their 
facility and the forthcomingness of the ORX employee. We were 
informed by ORX on at least two occasions they recalled finding 
and reporting cracks in the Acela brake disc spokes. However, 
at the time of our interviews, ORX staff could not recall the 
exact dates of finding and reporting the problem. They believed 
this occurred some 12 to 24 months ago.
    We asked ORX to research their records, and they have 
supplied us with additional information that we are now 
reviewing. We are zeroing in on the time line, ORX is 
cooperating and we are seeking out current and former employees 
to pinpoint better when and to whom these reports would have 
been made. I cannot overemphasize that we have a number of open 
questions that need to be resolved, and we are only midstream 
in our investigation. I would not normally release information 
such as this at this stage of the investigation, but I think it 
is important to share it with the Committee, because we are 
investigating failures of a safety critical part.
    We got, all of us collectively, got very lucky that this 
was found when it was. When the examination of the brake discs 
was made, the first slight through the train was a visual 
inspection. I think that's where the Committee was informed 
that there were failures on a rate of 20 to 30 percent. When 
you do a more definitive test, when you do a magnetic particle 
inspection test, you find that you miss half of the cracks. So 
a visual inspection alone is not going to do it. You are going 
to have to adopt some procedures, probably taken from airline 
experiences, to look for those cracks, to understand when they 
began, how long they stayed before they propagate.
    Because the danger is, here is what we think we know so 
far, the danger is the crack propagates very early, and it 
starts out small, maybe invisible. Over time, that crack will 
reside and stay there for a while and then it will slowly makes 
it round around the first spoke. Once it goes through the 
entire first spoke, the disc itself, it is hard to see because 
the spoke pulls both in tension and compression. So when the 
disc is hot, you can't observe it, but it's pulled farther 
apart. When it cools, it closes the crack back down. That's the 
mechanism. So that's why those little cracks were kind of hard 
to see, because there was compression to return the crack to 
its normal position.
    But once you get through that first spoke, it will start 
propagating to the adjacent spokes. Eventually it will make its 
way through all six spokes. If that happens, we could have a 
catastrophe on our hands. When the inspections were made, the 
first report that came out found 317 spoke cracks over 300 
discs. That means that there were some discs that had more than 
one crack in the disc. Some discs had two cracks, cracks in two 
spokes, some had cracks in three spokes. We are finding after 
the mag particle inspection there were probably discs out there 
with cracks in as many as four or five spokes. There were only 
a handful of these, but it shows you that you were getting 
dangerously close to a very, very serious problem.
    We have, I have issued subpoenas to everybody on that 
chart. I have done that both in a friendly way and I have also 
done that to make sure that we get all of the information that 
relates to this problem to try to answer the questions of who 
knew what when. As soon as we have that information, we will 
certainly provide it to the Committee.
    Thank you for the extra time, Mr. Chairman.
    Mr. LaTourette. I thank you very much, Mr. Weiderhold.
    Ms. Hecker, thank you for coming, and we look forward to 
hearing from you.
    Ms. Hecker. Thank you, Mr. Chairman.
    I am very pleased to be here today to provide some 
contributions based on completed GAO work. We don't have 
anything on the brakes and none of the details that you have 
heard. But we have a comprehensive report that we completed on 
the overall Northeast Corridor Improvement Project, of which 
the Acela was a portion. Then another report on the settlement 
and the dispute between the consortium and Amtrak and a special 
issue about maintenance as a key part of that settlement.
    The issues that I will cover today will be, four issues 
that I will cover. First, quickly, some of the issues that have 
affected the Acela development since its inception. I think 
some of the members already alluded to that, the issues that 
led to the suits and counter-suits and then the settlement. 
Then how our report basically identified that while the 
settlement was probably a good thing in many ways, certainly it 
kept the parties working together, it really wasn't self-
executing. There were lots of risks and challenges that 
remained, and they remain today and I think provide a very 
relevant context for the discussion today about the Acela 
performance.
    Then a second product that we did on the overall management 
of the project and how the issues here relate to challenges in 
managing large scale projects. On the first issue, basically as 
has been alluded, there have been significant issues affecting 
the Acela program since its inception. The first four points 
really were all about the production of the train sets. As 
several of you alluded, there was new technology, it was not 
over the shelf, which presented considerable risks. It was 
finalized, the procurement, before the new safety standards 
were promulgated. Those safety standards had a very substantial 
impact on the weight and cost of the train set.
    Third, there were obviously many production and 
manufacturing delays. And finally, because of those delays and 
the pressures that all of you have alluded to, there was 
extremely abbreviated testing on this train set. FRA told us 
that there was an electric locomotive that they told us was an 
appropriate model. The testing on that was 165,000 miles. The 
testing on the Amtrak Acela model was 35,000 miles. So you 
basically had an extremely abbreviated testing, which was an 
environment where you really would have been able to identify 
and presumably resolve some of the issues that have continued 
to plague the program.
    The second issue is basically setting up that one of the 
unique things about this contractual relationship is that the 
consortium that built the train set actually agreed to build 
the facilities, maintain the train sets and supervise Amtrak 
employees until 2013. Amtrak would just provide the employees 
to conduct the maintenance.
    The next page basically gets to the issues that led to the 
suit. There were major performance issues that led Amtrak to 
withhold payments. Bombardier then first sued. The allegations 
they had are very important to the discussion today, because 
they allege that they had been provided inaccurate information 
on the infrastructure conditions, as well as concerns about 
changed designed specifications.
    The infrastructure conditions, I think several of you 
alluded, are important because the curves that affect the speed 
and the curves and the poor condition potentially have some 
relationship to the whole fatigue on the brake issue being 
discussed today.
    Finally, then, Amtrak counter-sued. They maintain that the 
consortium had not met the performance requirements, had 
deficient engineering and poor management. The terms of the 
settlement, though, in March 2004, basically had the consortium 
agreeing to complete many outstanding modifications. Some are 
still outstanding, and that remains.
    The most critical one perhaps is to achieve the performance 
requirements of the original contract. The main performance 
requirement is 17,500 miles of the mean distance between 
failures. So that's basically a core measure. The train set 
still hasn't reached it. And it needs a six month rolling 
average before that requirement will have been deemed to have 
been met. So the consortium is still liable for that.
    Under the new terms of the relationship, they would provide 
training to Amtrak staff, provide technical information and 
honor the existing warranties and actually extended a bumper to 
bumper warranty. Amtrak then was responsible for assuming the 
facility management and the maintenance as of October 2006. 
This could be in jeopardy. This whole issue of these evolving 
roles could be affected by what we are talking about today.
    The other major responsibility actually written in the 
agreement, that Amtrak was responsible for creating a 
transition plan to hire, designate particular staff, maintain 
the train sets and the facilities and make a choice about a 
procurement plan and how they would proceed.
    As I said in my opening, we believe that the Acela program 
still faces considerable risk under the terms of the settlement 
and the terms of the original contract. As I mentioned, the 
first one is getting these modifications and performance 
requirements met. As I said, many are still open and the 
performance requirements for reliability, speed and comfort 
have yet to be achieved. Obtaining technical expertise for the 
maintenance and training, I think this relates to some of the 
details of the communication about the actual technical issues 
of maintenance. These are not unimportant issues, and they 
certainly pervade way beyond the brake issue.
    Finally, there was the issue of sufficiently funding the 
maintenance and integrating the responsibility. All of these 
three concerns, we felt, ought to be dealt with in a 
comprehensive implementation plan. Our report recommended that 
Amtrak deal with these risks and have a comprehensive plan. To 
our knowledge, it is still not done. There are critical 
elements that are missing. We think it exacerbates the risks 
which now are so complicated by the brake problem.
    Finally, I would say that not only would I put these issues 
in the context of the Acela, but in the context of the 
management of the Northeast Corridor Improvement Program. The 
challenge is clearly larger than the brakes, and reaches issues 
of broader challenges that Amtrak has had in managing large 
scale projects.
    Our report on the Northeast Rail Improvement Project, and 
again, this has three elements. There was an electrification, 
there was the train set to achieve the three hour time limit 
and then there were infrastructure improvements. Our review of 
how Amtrak managed this program is that it was very short-term 
and it was very segmented. It was focused on the 
electrification and of course there were suits and problems 
with that.
    Then there was a focus on acquisition of the train sets, 
which I have just described, had many problems. There wasn't 
really adequate focus on the major infrastructure improvements 
and we actually have a number of the critical components 
identified that we couldn't even identify the status of. The 
project was not managed like a project and there was no 
financial plan. While it is probably true that they never got 
all the money they needed, they never presented it in the 
comprehensive form of a plan to identify, this is the plan we 
need. Rather, they worked the plan around the annual budget and 
what they received each year.
    So an overall observation we have there, and it is one that 
actually required some action by both Amtrak and FRA, the 
oversight of this major modernization, I think Mr. Mica 
referred to it, it was the most costly Federal investment in 
inter-city passenger rail in the last century, and this one 
too. The oversight of it was grossly incomplete by both Amtrak 
and FRA. FRA told us they didn't even think they had the 
authority. We were surprised, we scoped it out and looked and 
agreed that they actually hadn't been given the authority.
    So you had a $3.2 billion acquisition including the costs 
of other parties, who are very important: the State of New 
Jersey and the transit agencies that were party to this. It was 
not a comprehensively managed project.
    As you alluded, we have some ongoing work on other aspects 
of Amtrak management. We hope when we are ready to report that 
those will provide further light on the systemic challenges and 
moving toward comprehensive solutions. Thank you, Mr. Chairman. 
I would be glad to take any questions.
    Mr. LaTourette. Thank you very much. Again, I want to thank 
you all. I tell the members of the Subcommittee, it looks like 
our first series of votes is going to be about 11:30. It will 
be my hope, because of Mr. Jamison's situation and others, we 
could vote as quickly as possible and get back.
    Mr. Jamison, I understand from talking to Amtrak that they 
have made a request to operate an instrumented Acela train on 
the northeast corridor in an attempt to begin the process of 
getting the train back into service. Has the FRA reviewed and 
approved that request?
    Mr. Jamison. We have. We expect that test to take place 
sometime later this week.
    Mr. LaTourette. Has the FRA made a determination as to what 
additionally is necessary on the part of Amtrak to put the 
Acela back into operation, aside from this test?
    Mr. Jamison. In a nutshell, it really depends on the 
solution. As Mr. Weiderhold referred to, there are still 
several alternatives on the table. There is still a lot of 
analysis yet to be done. So depending on whether or not there 
is a move to try to put the existing design rotor back into 
place or if there is a move to go to a new, redesigned rotor, 
there will be a lot of analysis required.
    But, in a nutshell, we are going to require qualification 
of the new components or the existing replacement component; a 
new inspection, testing and maintenance plan that addresses 
some of the inspection issues that have been pointed out, to 
make sure that, if these cracks are so hard to detect through 
visual inspection, to state what other types of inspection 
techniques are necessary to return it to service, and finally, 
a review of the training program to make sure that items, such 
as were pointed out by Mr. Weiderhold, when manufacturers' 
specifications update current inspection techniques and 
correspondence which routinely happens, to make sure that that 
information is actually getting to the people doing the 
inspections.
    Mr. LaTourette. During her testimony, Ms. Hecker mentioned, 
I think it's GAO's opinion that the settlement agreement 
between Amtrak and the consortium has risks and challenges yet 
remaining. The Secretary of Transportation sits on the Amtrak 
board of directors. Are you aware of what role the DOT played 
in approving the settlement agreement and also ensuring its 
successful implementation to this point in time?
    Mr. Jamison. Actually, I am not 100-percent sure of the 
vote at that time, since it preceded me. I believe that our 
member voted "yes" to the settlement agreement.
    Mr. LaTourette. Aside from voting on the settlement 
agreement, maybe you could get back to us, if you would, 
someone at FRA or DOT, specifically what role DOT or the 
representative of DOT had in not just passing on the settlement 
but participating in the discussions on the settlement. When 
other witnesses come, I have some questions on the settlement 
as well.
    And lastly, I am going to ask Amtrak this, it does not have 
anything to do with this hearing, but there was a report on one 
of the local television stations last night relative to the 
tunnel under the Cannon Building. It is my understanding that 
the tunnel is patrolled by the Amtrak police, and as a matter 
of fact, the camera crew was met by the police when they 
arrived. That only passenger trains travel through that tunnel, 
and that rail access is controlled by a switch operated by CSX, 
and that both CSX, in cooperation with FRA and also DHS, has 
developed extensive security plans for that tunnel, which 
obviously we are not going to discuss in public. Am I incorrect 
in any of those observations?
    Mr. Jamison. That is my belief as well. I would also add 
that in my other duties, I am currently also Deputy 
Administrator of the Federal Transit Administration. FTA 
provided technical assistance, including a vulnerability 
assessment, to Virginia Railway Express (VRE) that addressed 
some concerns about that tunnel. I would be happy to discuss 
some of the findings and some of the actions that have taken 
place. But I agree with your statement.
    [The information received follows:]

        The settlement was negotiated between Amtrak and the 
        Consortium, and the related discussions were undertaken without 
        the involvement of the U.S. Department of Transportation, 
        including FRA. Amtrak's Board, including the Secretary's 
        representative on the Board, were briefed on the progress of 
        negotiations and participated in general discussions about 
        strategy and the acceptability of alternative outcomes.

    Mr. LaTourette. Thank you.
    Mr. Weiderhold, I am going to ask unanimous consent, 
because I did not see it attached to your testimony or the 8 1/
2 by 11 sheets of your charts, so without objection, those will 
be made part of the record.
    I just wanted to be clear on two of them, one, the 
schematic flow chart and then also the SAB WABCO scheduled 
maintenance observation. As I understood your testimony, the 
WABCO service notification indicates that aside from inspecting 
the brake surface that also it was their recommendation that 
the spokes be inspected for cracks as well.
    Mr. Weiderhold. That is correct, sir.
    Mr. LaTourette. But somehow, as you look at this flow chart 
that you provided from WABCO to Knorr to the consortium back 
down to where it eventually winds up, either at ORX or on the 
shop floor, it is your understanding that that information, 
other than a slight reference to please refer to a larger, 
another document, is it your finding to this point in time that 
that information did not make it to the men and women, I 
suppose, that were actually performing the inspection services?
    Mr. Weiderhold. Yes, sir. We spoke to the NEC-MSC senior 
managers, we talked to supervision, we talked to the guys with 
the lights that go under the train, and they were unaware of 
that requirement.
    Mr. LaTourette. I mentioned in my opening remarks the 
newspaper article this morning. The last box, well, it's not 
even a box, I don't know what kind of shape that is that you 
put down here at the bottom, it has ORX, which is the company 
that I think you mentioned is located in Altoona, Pennsylvania.
    Mr. Weiderhold. That's correct, sir.
    Mr. LaTourette. According to the newspaper this morning, 
and I think also from your observations, you have collected 
information that 12 to 24 months ago, someone at ORX recalls 
seeing the cracks in the spokes that are the subjects of our 
concerns today?
    Mr. Weiderhold. Yes, sir. We have conducted two site 
visits, several interviews, both in person and in telephone 
interviews with current and former ORX employees. They do 
recall finding cracks in the spokes. We asked them to pull 
their quality assurance, quality control, QA/QC records. We do 
have some documentation that validates their recollection. We 
are in the process of kind of tracking that down. The time line 
is very important. And the time line may be, I learned last 
night the time line may be 12 to 36 months.
    Mr. LaTourette. Okay. And specifically, I think I heard you 
say, but I would just ask you to repeat it, and if you didn't, 
I apologize, but was it your finding to this moment in time 
that that information, if that in fact is what ORX was 
discovering 12 to 36 months ago, to your investigation to this 
moment in time, was never communicated to Amtrak?
    Mr. Weiderhold. No, sir, we have no information at all that 
Amtrak ever received that information.
    Mr. LaTourette. Do you have information that that finding 
of 12 to 36 months ago was reported to anyone on your flow 
chart?
    Mr. Weiderhold. Yes, we do. We had been given information 
that the cracks were reported to Knorr.
    Mr. LaTourette. Anybody else besides Knorr?
    Mr. Weiderhold. We have an allegation that we need to run 
down, I am not comfortable yet until we do some more 
interviews.
    Mr. LaTourette. Okay. But that, I assume, as you continue 
your investigation, if in fact the ORX information proves to be 
reliable based upon not only memory but documentation, is it 
your intention to work through this maze to determine where 
that information went and where it stopped?
    Mr. Weiderhold. Yes, sir, and I think the use of the term 
maze is a good, descriptive adjective.
    Mr. LaTourette. Is it also your intention or have you 
completed the discussion as to why the WABCO service bulletin 
that indicated that we should, not we, but inspectors should 
not only look at the surface of the brake but also the spokes, 
why that did not make it from WABCO to the shop floor?
    Mr. Weiderhold. We have not conducted interviews of the 
WABCO and Knorr individuals yet. We would hope to do that soon 
in order to answer that question. All we can do is track the 
document flow. And based upon the document flow, it seems 
strange that a critical inspection step was truncated with a 
one-sentence reference. I think that's really what I would call 
a lost in translation problem.
    Mr. LaTourette. And my last question is, you mentioned you 
have issued some friendly subpoenas. Has everyone on this flow 
chart been cooperative as you proceed with your investigation?
    Mr. Weiderhold. You have to understand, Mr. Chairman, I 
want to correct one thing, just like Mr. Mica was correcting 
some of the mistakes in the Post, there was in the Post, I 
believe, reports that we have had some recalcitrance. That 
recalcitrance was not with Bombardier and Alstom or NEC-MSC. 
They have been cooperating fully. We sometimes have to issue 
what we call friendly subpoenas because the contractual 
relationships and confidentiality agreements that exist between 
and among these parties require that they keep that information 
close. The only way that information would be released is 
through the subpoena process. We oftentimes have to issue what 
are called friendly subpoenas.
    The answer to the rest of your question is, no, we have not 
had, we have had some people either get lawyered up or 
basically tell us that they don't have time to meet with us. We 
ask not just once but twice and three times, because we thought 
it was in their better interest to kind of come and talk to us, 
just an hour of their time to come and let us know kind of what 
happened here.
    Mr. LaTourette. And just so I'm clear, you have subpoena 
duces tecum authority, but if you were lobbying on behalf of 
the IGs of the world, you would like to have a little more 
authority to get at people that may not want to discuss things 
with you?
    Mr. Weiderhold. That's correct, Mr. Chairman. In the IG 
world, with the exception of maybe Justice and I think DOD, all 
of the cabinet level IGs, as well as the smaller IG office, 
were referred to as the designated Federal entity IGs. There 
are about 30 of us. We only have duces tecum subpoena 
authority, we do not have testimonial subpoena authority. I 
think that the Committee, Congress ought to consider granting 
the IG community that in all matters relating to safety and 
security. That would be extremely beneficial in moving these 
types of investigations along.
    Mr. LaTourette. Thank you.
    Mr. Mica. Mr. Chairman, if you would yield just a second, 
would it be possible to request that FRA report to the 
Committee on those who have not been cooperative or any who in 
their estimation are not cooperating with their investigation?
    Mr. LaTourette. Sure. I would make that request of both 
you, Mr. Weiderhold, and also the FRA. I think that's an 
excellent suggestion.
    Obviously not only your suggestion on subpoena power, but 
we're dealing with a safety issue. I think Mr. Oberstar was 
right in indicating this could have been catastrophic had it 
not been for the good work of the FRA inspector. So I would ask 
you to get back to the Committee staff if you find somebody 
being recalcitrant.
    I appreciate your correcting the record, and again, not to 
harp on it, but that's why we don't really like to read about 
the hearing before the hearing has occurred, because sometimes 
there can be misstatements.
    Ms. Brown.
    Ms. Brown. Thank you.
    I guess what I am most concerned about was that a disaster 
could have occurred, but we were very lucky. That dog just 
doesn't hunt. We need to know who was responsible for the 
inspections, whose responsibility it was, and is it not a part 
of the procedures to check for maintenance, and whose 
responsibly was it to check over a period of time? That's the 
part that I'm kind of confused about.
    Mr. Weiderhold. I have an adage that safety is everybody's 
responsibility. Safety trumps everything. I think everybody on 
that organization chart has a responsibility for safety. Where 
liability lies, I will leave that to the lawyers. But safety is 
everybody's concern.
    One of the things we had worked with NEC-MSC on a few years 
ago was to actually get to that checklist on the floor so we 
could kind of cull out and highlight any inspection on a 
safety-critical part. Because normally you have more detail, 
different tools, you have a higher certified supervisor, all 
those things take place on other safety critical parts. But for 
some reason, and it is a why, both of those are the right 
questions to ask, for some reason that did not work in that 
case.
    The why, I think we have a pretty good indicator, based 
upon the documents. The who is tougher. Because if someone knew 
about this and for whatever reason put their head in the sand, 
that is a bad decision. We want to make sure that it was not an 
unintentional kind of oversight. We need to get that 
information.
    Ms. Brown. Ms. Hecker, you have done at least eight 
investigations of Amtrak since 2000 and you are working on one 
now. You have interviewed Amtrak employees and requested 
materials, we have this report. You have done an extensive 
investigation. I am wondering, how much has it cost Amtrak, and 
is this just another report that we are going to put on the 
shelf?
    Ms. Hecker. How much do our studies cost in Amtrak 
employees' time?
    Ms. Brown. And money.
    Ms. Hecker. Well, we only do work that's requested by 
Congress. We are set up to provide investigative support for 
issues that are of interest to the Congress. One of the few 
areas of Government accountability that Amtrak is covered by is 
that they both have an IG and that they are subject to GAO 
audits. I suppose the Congress could undo that, if you didn't 
think that we add value.
    Ms. Brown. No, I guess my question is, so Congress has 
requested these nine investigations?
    Ms. Hecker. That's correct.
    Ms. Brown. Okay. How much has it cost Amtrak?
    Ms. Hecker. We don't do studies of the amount of time that 
it takes people to respond to our requests. I don't have that 
information. I could say that on both of these investigations, 
we experienced substantial delays in getting the information 
required from Amtrak. In the case of one report, when we sent 
the report to them for comments, they disagreed vehemently with 
the report and said the problem was that they hadn't given us 
all the information that we should have had, and that delayed 
the report three months.
    So yes, it takes time, but if you are comprehensive in the 
response the first time, it will take a lot less time.
    Ms. Brown. Well, I guess it's something that Congress needs 
to take a look at. Because like I said, we have had nine 
reports since 2000.
    Ms. Hecker. I think some of those are testimonies that are 
based on the reports.
    Ms. Brown. Thank you. I yield back the balance of my time.
    Mr. LaTourette. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    First of all, I appreciate the data flow chart on Acela 
brakes. I am more interested in a flow chart of who is 
responsible. Obviously if Amtrak signed a contract, and I 
understand with this consortium, to provide maintenance, 
someone was responsible. Who was responsible for overseeing 
that contract? Mr. Jamison?
    Mr. Jamison. I would refer the contractual questions to Mr. 
Weiderhold about exactly how the contract works inside Amtrak's 
guidelines. My overall concern is the requirement that Class I 
brake inspections be done daily and that the other overriding 
regulation, which is--
    Mr. Mica. Well, I want to get into that in a minute. But 
who was responsible? I mean, here is a multi-million dollar 
contract, billion dollar contract probably, $700 million just 
for the equipment. Now, who is responsible for the contract 
management? Is it Amtrak or maybe this panel?
    Mr. Weiderhold. I think you could--
    Mr. Mica. Do we have a flawed system in Amtrak in managing 
the contract?
    Mr. Weiderhold. I think what you've got is you've got less 
than an optimal model here. If--
    Mr. Mica. I asked the staff for, can you get me a flow 
chart for Amtrak and who oversees what. We don't have one. 
That's scary.
    Mr. Weiderhold. I think there are a couple of ways to use 
this chart, if I could explain a little bit.
    Mr. Mica. This again, I am going beyond the chart in who's 
responsible. Now, we also have the original equipment 
manufacturer bulletin that has recommended inspections be done 
every 20,000 kilometers, approximately 10,000 miles. That 
wasn't done. Was that done, Mr. Jamison?
    Mr. Jamison. It was done, in our opinion. The issue is 
whether or not the--
    Mr. Mica. It was done, in your opinion?
    Mr. Jamison. Yes. There is a requirement--
    Mr. Mica. So we have a service record where the consortium, 
those that were responsible for the maintenance did perform 
this. I just want to know, is that true?
    Mr. Jamison. There is a daily requirement to do an in-the-
pit, undercarriage inspection of all major components. I don't 
have the document in front of me that you are referring to.
    Mr. Mica. Again, the original equipment manufacturer 
bulletin recommended an inspection of the spokes be done every 
20,000 kilometers.
    Mr. Jamison. I'm not aware of that inspection, no.
    Mr. Mica. The information I have, it was, the inspection 
was surface only, not the brake rotor spokes as required under 
the service manual. So someone was not doing the maintenance.
    Now, Amtrak didn't discover the flaw and the consortium 
that was charged with maintenance didn't discover the flaw. 
FRA, how did you discover this, or was this?
    Mr. Weiderhold. How did I get notice of it?
    Mr. Mica. I'm sorry?
    Mr. Weiderhold. How did I personally get notice of it?
    Mr. Mica. No, how did FRA--
    Mr. Weiderhold. FRA discovered it during a post-test 
inspection of a speed test to improve curve speeds. They 
detected rust and actually--
    Mr. Mica. We are very fortunate that someone did find it. 
Thank God this thing, you know, the Post talked about the high 
speed service. The average speed, I am told, of the Acela is 
between 83 and 84 miles per hour in the northeast corridor, in 
that range, which is one to two miles faster than the 
Metroliner, I'm also told, at least from New York to 
Washington, D.C. Thank God this thing was not going 150 miles 
per hour as it was designed continuously. Because we would have 
an incredible disaster, by any technical evaluation.
    Part of the problem stems back, though, to a flawed 
acquisition, first, buying the most expensive equipment. I just 
want to put in the record, so we have this, because I like 
these records to go back and refer to. This is Mr. Gunn's 
statement saying, and this is back in 2002 when he was 
questioned about the system, we could have bought off the shelf 
technology at $2.5 million for the locomotive, about $2 million 
each for the deck and he says it himself here, instead we 
bought a $700 million, $34 million for the Acela locomotive and 
very expensive equipment, and probably could have made money. 
But I'd like this to be made part of the record if we could, 
Mr. Chairman, showing that from the beginning, the acquisition 
was flawed.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2496.093
    
    Mr. Mica. Then we had numerous, we have 15 different models 
of 20 train sets, is that right, Mr. Jamison, do you know?
    Mr. Jamison. There are 20 trainsets.
    Mr. Mica. But there are 15 different models.
    Mr. Jamison. They all have unique characteristics, from my 
understanding.
    Mr. Mica. And yes, in all the change orders, we changed the 
weight, the size, all of these things. So we have a train that 
really doesn't run on the tracks or the catenary that it was to 
be accommodated by. Are we going to have more lawsuits as a 
result of this, Mr. Jamison? Do you know? Is there a potential 
for lawsuits?
    Mr. Jamison. Well, since the contractual agreement that 
will be the basis of the lawsuits is between Amtrak and the 
Consortium, probably Mr. Weiderhold is better prepared to 
answer that.
    Mr. Mica. One of the reasons I asked for the legal costs 
for Amtrak, we spend about $60 million a year on legal costs 
for Amtrak. We spend $4 million a month on maintenance for this 
system. If this had not been so entangled, we probably could 
have spent some of this money on maintenance or at least 
oversight instead of the mangled acquisition and lawsuits that 
have resulted.
    Finally, again, we have to fix the problem with management, 
we have to fix the problem with oversight. Maybe each of you 
can tell us what you would recommend and how we proceed from 
here to fix this so that this does not happen again. Mr. 
Jamison, we will start with you.
    Mr. Jamison. As I testified earlier, I mean, before the 
Acela is brought back to service, our utmost concern is the 
safety of the crew and the passengers. There are basically 
going to be three requirements for returning Acela to service: 
doing qualification testing on the replacement component to 
make sure that it is designed to meet the loads and that we 
have tested to determine what the loads are in the corridor; to 
make sure that they do a revised inspection, testing, and 
maintenance plan that will get at the inspection procedures 
that are necessary and the different inspection techniques that 
are necessary--
    Mr. Mica. Can you provide us with a recommended flow chart 
for Amtrak and how to follow and pursue, again, adequate 
contract management, so this will not happen again and your 
recommendation, just for the record?
    Mr. Jamison. We can provide some recommendations.
    [The information follows:]

        As discussed in the hearing by the witness from the Government 
        Accountability Office, the Acela trainsets did not go through a 
        rigorous testing regimen at the prototype phase. Thus, it is 
        unclear how the equipment will age and whether additional 
        defects and design shortcomings will be identified during the 
        aging process. It makes the most sense from FRA's perspective 
        that Amtrak select one or two Acela trainsets as cohort 
        leaders. A conscious effort should be made (1) to maximize the 
        mileage and service time accumulated by these trainsets and (2) 
        that on a periodic basis they be subjected to a rigourous 
        examination to identify these components of the equipment that 
        are most subject to deterioration due to age and use. In the 
        way, an ongoing, updated preventive maintenance program, 
        including assuring the availability of adequate inventories of 
        critical replacement components, can be developed and 
        implemented for the other 18 trainsets. This could help assure 
        that a total loss of Acela serice due to mechanical failure is 
        avoided in the future.

    Mr. Weiderhold. Sir, two thoughts. First, with respect to 
the brake discs very narrowly, there are some things that can 
be done on these processes that can be improved. There are a 
number of parts on the train. There are some that are more 
safety-critical than others. What you are talking about with 
respect to cleaner, more robust project management, definitely 
that is one of the biggest lessons learned thus far in our 
investigation.
    I happen to agree with you to some extent on the project 
management issues facing Amtrak. I think there have been 
examples of large projects that could have been better managed 
over the years. I think David Gunn inherited some of those, he 
is having to manage through those. He is a railroader's 
railroader. He reminds me a lot of Graham Claytor, for whom I 
used to work. But he's got something that he needs to manage, 
and he and I work very closely, work very closely with senior 
managers.
    There are some signs of hope. There is a fire-life safety 
project up in New York that is being used as a pilot program to 
put in world class project management techniques. That is a 
close to a billion dollar program for fire-life safety 
mitigation, security concerns in New York Penn Station. We are 
about 18 months into that. I think there are some 
organizational lessons learned and some process lessons learned 
that I hope to cede to other parts of the corporation, because 
that has been a problem in the past. So there is some hope, Mr. 
Mica, that the corner has been turned in a few areas.
    Mr. Mica. Ms. Hecker?
    Ms. Hecker. We have outstanding recommendations that Amtrak 
ought to adopt and follow best practices for managing large 
scale projects in the railroad industry. Our review found that 
they clearly had not done that.
    We also have an outstanding recommendation that they ought 
to have a comprehensive transition plan to deal with 
implementation of the settlement and assumption and integration 
of the maintenance responsibilities. We have not had a positive 
response to that recommendation in terms of the 
comprehensiveness of the plan we are looking for. And we have 
recommendations in both of those reports for improved FRA 
oversight of both of those matters.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. LaTourette. I thank you very much. It would be the 
Chair's predisposition to recess. There are 8 minutes and 30 
seconds left in this vote. When we come back, we will go to Mr. 
Oberstar, so he has plenty of time to proceed.
    I would advise everybody that the Highway Subcommittee has 
a hearing set here at 2:00 o'clock, so if we could hustle back 
here and move expeditiously so we could get to the next panel, 
I would appreciate it. We stand in recess.
    [Recess.]
    Mr. LaTourette. The Subcommittee will come to order. Other 
members will join us as they are able to, then we will go to 
Mr. Oberstar, as promised, when he gets back. But at this time, 
since our witnesses are back, it is my pleasure to yield to Mr. 
Menendez of New Jersey.
    Mr. Menendez. Thank you, Mr. Chairman.
    I want to thank the witnesses for their testimony, and I 
want to go over a few things here that have been said as part 
of your testimony.
    Mr. Weiderhold, you are not at the point at which obviously 
you have concluded your review, you are somewhat away from 
that, right?
    Mr. Weiderhold. No, sir, I would say I am probably 
midstream through the process.
    Mr. Menendez. Midstream, all right. But to the extent that 
you have reviewed up to this point and based upon your 
testimony here today, there is a statement in, there is a 
paragraph in your statement on page four that says, ``From all 
of our interviews and documents reviewed thus far, we have no 
evidence that Amtrak was ever made aware of brake disc spoke 
web cracks prior to April 14th, 2005, the date on which this 
was found, or was even aware of the manufacturer's detailed 
procedures for brake disc inspections.''
    Mr. Weiderhold. That is entirely correct.
    Mr. Menendez. So that is the reality up to this point.
    Mr. Weiderhold. Yes, sir.
    Mr. Menendez. We might find something different tomorrow, 
but right now, that is the reality.
    Mr. Weiderhold. Yes, sir.
    Mr. Menendez. And in that respect, is it fair to say Amtrak 
didn't design these brakes?
    Mr. Weiderhold. Amtrak did not design the brakes.
    Mr. Menendez. They didn't manufacture it?
    Mr. Weiderhold. They did not manufacture it.
    Mr. Menendez. So to suggest that this is Amtrak's fault 
seems to me to be an enormous leap of responsibility from an 
entity that did not design it, didn't manufacture it, didn't 
produce it, and didn't know, at least up to this point from 
your testimony, that they had any prior evidence that they were 
ever aware of any of these cracks prior to the date on which 
the inspector found it is just a huge leap.
    Mr. Weiderhold. I think I can every clarify that one step 
more.
    Mr. Menendez. Sure.
    Mr. Weiderhold. If you look at the diagram that we have, 
this organization chart, one way to view this is if you took 
everything below Amtrak, it's almost like kind of a black box. 
What Amtrak contracted for is essentially a variation of 
consists at the block. In other words, bring the trains to me, 
put it in my terminus, let me run the trains, bring it back 
down the railroad, send it back to you and you maintain it.
    What has changed a little bit since the settlement is 
Amtrak has certain responsibilities that it has to assume in 
taking over that maintenance operation. That is going to take 
place over a period of many months. It is scheduled to complete 
in October of 2006. I do not know if that time line is going to 
be affected by this problem.
    But probably one way to look at this is Amtrak as a 
customer of receiving a product.
    Mr. Menendez. I appreciate that. So to the extent that 
based on this diagram you have given the Committee, it seems to 
me, and tell me if this is a fair statement, that to the extent 
there is a problem of who knows what and what they did, it 
starts from here downwards, or from somewhere here upwards. Up 
to the consortium.
    Mr. Weiderhold. I think that's true, but at the same time, 
the experience we have with the train sets and several members 
have commented on the train's too heavy, the train's too wide 
and all the things that we kind of read in the press, I think 
that's a lot of history. The product is the product, at the end 
of the day.
    I think as I mentioned, I think Amtrak has a responsibility 
here, but it has not and could not assume that responsibility 
to date.
    Mr. Menendez. Thank you. Let me ask you this. You also 
stated on page five of your testimony, we requested interviews 
with the supplier-manufacturer, but so far we have been told 
that they are too busy to meet with us. Who are those suppliers 
and manufacturers?
    Mr. Weiderhold. Well, the supply chain here is WABCO is the 
OEM and Knorr is the owner of the brake assembly. We had 
approached both companies. We had some preliminary 
conversations with WABCO. They have since been shut down. And 
Knorr is taking the lead on working on the fix, and they said 
they are too busy to meet with us right now.
    Mr. Menendez. So WABCO, when you say they shut down, they 
shut down in terms of communications with you?
    Mr. Weiderhold. They got lawyered up.
    Mr. Menendez. They got lawyered up, i.e., their lawyers 
told them, don't talk to you.
    Mr. Weiderhold. I would imagine that was the case.
    Mr. Menendez. And Knorr is basically saying, well, we're in 
the midst of trying to fix this, so we don't have time now to 
talk to you?
    Mr. Weiderhold. They are working very hard on the fix.
    Mr. Menendez. I hope they understand, though, that at the 
crux of this will be the necessity for them to talk to you or 
Mr. Chairman, if necessary, at some point, to this Committee. 
And I would be one who would be willing to be supportive of the 
Chair's use of whatever subpoena powers may be necessary to get 
them to come. We have to get at the root of what it is that 
caused this and what people knew and when they knew it and the 
consequences here.
    Can I ask you one other question before I turn to Ms. 
Hecker? That is, your review really starts, to some degree, 
with the whole, or is focused with the issue of the brakes and 
whatever defects may have been found in those brakes and the 
process under which they were found to be, the cracks were 
found and maybe as to who knew what in the context of getting 
to that point.
    But it doesn't go back to what I consider a foundation 
question, unless I am wrong, and I'd be happy for you to 
correct me, it doesn't go back to the foundation question as to 
how did we get Amtrak to make these decisions in the first 
place about choosing this particular set of transportation 
options in the Acela?
    Mr. Weiderhold. That in a way is probably a subject of a 
whole separate hearing, because there are a lot of opinions on 
that. We have been focused strictly on the brake disc problem.
    But I can say, I was around when these decisions were made. 
I was around when Amtrak brought over the X-2000 train from 
Sweden and the German ICE train to test in 1992. There were two 
great trains that we had, we ran I believe for about six months 
each up and down the northeast. They performed pretty well.
    The Acela train was a train on paper. But the Acela train 
brought with it at the time a financing package, because Amtrak 
did not have the money to devote to purchasing the train sets. 
In hindsight, if you ask the consortium or if you ask Amtrak 
right now would you have done it this way knowing what you know 
today, you would probably get a very different answer.
    Mr. Menendez. That point that you just said, Amtrak did not 
have the money, to me is so telling about the genesis of where 
we are today. I appreciate your answers up to this point.
    Ms. Hecker, you said in your testimony, and I have read 
through some of the report, that Amtrak worked their plan 
around their annual budget and what they received each year.
    Ms. Hecker. Yes, sir.
    Mr. Menendez. Now, that isn't a good business model, is it?
    Ms. Hecker. No, it's not.
    Mr. Menendez. But then again, if you can't count on having 
a multiple year of revenue streams that are guaranteed to you, 
or that you can fairly project because you hobble along by 
Congressional appropriations that leave you far less off than 
you should be to operate successfully, how do you achieve 
success under that set of circumstances? Is it a fair criticism 
to say, well, they worked this year by year, and of course, any 
business plan you would like to work five, maybe ten years, but 
ultimately if you can't depend upon the resources, how do you 
plan ahead?
    Ms. Hecker. Well, many Federal agencies, of course, face 
the problem of the dependency on Federal resources. For a 
number of years, I did work on the Coast Guard with their 
Deepwater acquisition. That clearly was dependent on annual 
funding. But there was a comprehensive plan, a financial 
management plan, and a scenario structured in their whole 
project that really made it, I think, clearer to the Congress 
what the consequences of a certain level of funding not being 
met in any year would be.
    So it was the absence of a financial plan. It's true, they 
were dependent on the resources. And it's very hard to plan 
when you don't know how much you are going to get. But I don't 
think it undermines the value of having a comprehensive 
financial plan of what ideally the project would be.
    In fact, I think it was you who said in response to a 1992 
Act, the FRA prepared a whole blueprint that did have 
milestones, that did have cost estimates for the Northeast 
Corridor Improvement Project, including the new train set. But 
Amtrak didn't adopt that, they didn't use the set of milestones 
and didn't adopt the financial plan that--
    Mr. Menendez. But let me ask you a question. Even if they 
had adopted that financial plan, just answer this maybe for me 
yes or no, haven't we wholly underfunded Amtrak from what that 
financial plan would have been had they adopted it?
    Ms. Hecker. Yes.
    Mr. Menendez. Okay. And lastly, your study also, from what 
I gather, and correct me if I'm wrong, does not start off as 
well with the foundation issues as to why these choices were 
made in the first place, in terms of the Acela, what I just 
discussed with the Inspector General. You don't go that far 
back, you move forward from a different point in time, is that 
correct?
    Ms. Hecker. I don't think we explicitly mention the 
financing package, but we are aware that that was in fact a 
significant factor.
    Mr. Menendez. Mr. Chairman, just as a final note, I would 
note that as in anything in life, when I was a trial attorney, 
we could take a picture in time. And if we take a picture in 
time, it will depict a certain set of circumstances. The 
question is, having the totality of the circumstances to 
understand in part where we are today. Thank you, Mr. Chairman.
    Mr. LaTourette. I thank you very much.
    Mr. Simmons, we will get to you in a second. I think I went 
out of order when we broke for our emergency or whatever it 
was, I promised Mr. Oberstar we would get to him. So I will go 
to Mr. Oberstar then you.
    Mr. Oberstar. Thank you very much, Mr. Chairman. I 
appreciate your courtesy. I would like to ask unanimous consent 
that the record remain open for written questions to be 
submitted to the panel, in light of our truncated hearing, due 
to this evacuation of the building.
    Mr. LaTourette. Without objection.
    Mr. Oberstar. Thank you.
    I am concerned about two systemic issues here. One is the 
specifications for the casting of the steel brake disc unit. 
And the inspection and maintenance process. What we have 
learned in aviation is first of all, to have redundancy. 
Because in contrast to surface transportation, there is no curb 
at seven miles in the air to pull over and look under the hood 
or look at structures or engines. The backbone of aviation 
safety is redundancy.
    A second principle is excruciatingly painstaking inspection 
and replacement of parts that are time-sensitive. There are 
several levels of maintenance required for air frames and power 
plant. And there are time limits which certain things have to 
be done, even if there was a check a week ago, if this is your 
time limit that the part has to be taken out and replaced with 
new.
    There is a paper trail for everything. Every maintenance 
over the lifetime of that aircraft. There is also coordination 
among manufacturer, airlines with same type and model aircraft, 
within the records of the NTSB and the FAA.
    I do not see this same level of attention to detail and 
maintenance and specificity for safety in the rail sector, 
which is why seven, eight years ago, I introduced very 
comprehensive legislation to substantially elevate the level of 
quality of maintenance and oversight of maintenance in the rail 
sector.
    Now, I reviewed some of the work orders and nowhere on the 
forms do I see a requirement to inspect hubs or spokes. There 
is a requirement for inspection of friction rings for cracks, 
but not the spokes. There was a service bulletin issued in 
2003, it says failure of the brake discs could ``result in 
considerable damage to equipment and extensive and possible 
fatal injury to passengers and onboard personnel.'' The service 
bulletin referenced the technical manual requiring inspection 
and replacement of the cracked spokes. But when you go to the 
next step along the line, there was not the same requirement to 
inspect hubs and spokes. Now, in aviation, that would be a 
colossal failure, a problem.
    A second collateral issue is the personnel doing the 
inspection work themselves and certified maintenance. In 
aviation, airline mechanics are certified by the FAA. They get 
an A&P license, air frame and power plant. Then they go through 
the training, they get their qualification status so that when 
this mechanic says this part is the wrong part, this part is 
defective or this aircraft will not go back into service, it 
doesn't go back into service. The same standard does not apply 
in railroad maintenance. That elevates the quality and the 
integrity of personnel performing maintenance to have this 
status.
    Now, what we find here is lack of training, lack of 
communication and lack of clarity and instructions on 
maintenance. So where was the disconnect? Why did the workers 
not know they were supposed to be inspecting spokes for cracks?
    Mr. Weiderhold. I probably could not have phrased it any 
better than you just did in outlining exactly what the problems 
are, Mr. Oberstar. I think the analogies with the aviation 
industry are right on point. Because part of what we are going 
to be looking for is that redundancy.
    Right now, all I have is paper. That's all I can compel 
right now. So I start with those procedures. And having a 
little bit of engineering background, you look for certain 
things. The other things I would look for in the chain you just 
described is I would expect the OEM would have done some type 
of testing beyond just a finite and limited analysis or the 
like. So I would like to see what those tests are.
    One of the very interesting things right now is, working on 
the fix, is that all of, there is a new Knorr brake disc design 
and a manufactured product that goes to German, to Munich for 
testing, to Knorr Brimms, Knorr Brimms has a hydraulic pulsator 
to actuate and imitate the amplitude and the forces that are 
applied on the disc. The Knorr disc, the new disc is performing 
very well. It took lateral forces up to 150 gs, at one point 4 
million cycles.
    The WABCO product, the current product that was out there 
started exhibiting cracks somewhere between 0 and 50,000 cycles 
at 46 gs. That does not say it's failing, but it says that 
there is a problem. That's why we need to get those results 
back.
    What I am really interested in is, was there a failure 
analysis done at any point prior to the time that the crack was 
discovered? Were there tests that were done by the OEM at the 
time of manufacturing? I have asked for the mil certs, I have 
asked for a casting analysis. This is a poured cast, it's not 
force fed. You know what happens in casting, when you put it in 
the sand, the way that it is cured. All those things kind of 
come into play.
    The Amtrak metallurgist has informed me that he does not 
believe this is a casting problem. However, I would like to see 
the test results. I would like to see the metallurgy, I would 
like to see the yield and strength tests, all those things that 
go into steel. Steel is a great product. It is elastic. You 
generally design a safety factor of about 1.5 over the 
specification in anticipation of load, because it does have 
elasticity. There are ceratin things that you look at.
    The new Knorr products, when you look at that diagram of 
the spokes, the biggest difference between that existing brake 
part and the new Knorr disc is you take the spoke and you turn 
it 90 degrees, so you have increased the section modulus and 
you have by definition strengthened it against the bending 
moment. That's what we would expect on a bench test that it 
would perform superiorly.
    I would like to know when that was designed, why it was 
designed, get answers to all those questions. Because this time 
line is very important.
    With respect to the procedures, I think there are some very 
good lessons to be brought over from aviation into the rail 
industry, and especially, especially with safety critical 
parts. If you don't have it anywhere else, at least have 
redundancy when you know you have a safety critical part.
    Mr. Oberstar. I appreciate your answer and the depth to 
which you went in responding. All the issues about metallurgy 
are matters that I think we have to await the outcome of 
further investigation. The fact that, what I consider to be a 
fact, from reading the documents, the FRA inspector cut the 
spoke out of the rotor and then it fell apart in his hand.
    Mr. Weiderhold. At first, there was some concern about how 
deep the crack was, did the crack go through the entirety of 
the width of the spoke. The first one that looked like the 
worst one, there was a plasma cut that was done above and below 
the identified crack. When that piece was taken out, the two 
pieces fell apart, which confirmed that the crack was clean 
through the spoke.
    Mr. Oberstar. Which raises questions about the standards, 
Mr. Chairman, set for the metallurgy itself. What are the 
standards and who crafted them? Those are questions that we 
should not pursue here, because I think we have to await the 
outcome of metallurgical testing. I hope there will also be 
some independent metallurgical lab testing of these parts, so 
we get a balanced kind of a consensus view and not just one 
viewpoint of this matter, which is, it is extremely important.
    Again, in aviation, there are standards that are set, have 
to be followed. The parts that are cast, parts that are 
machined and parts that are composites have to be subjected to 
extraordinary testing and assure the continuity of quality.
    Mr. Weiderhold. If I could, you also made a point about the 
AMT and the certification that is required. There is, in this 
model, a certification that is required for a sign-off by a 
supervisor that includes slightly greater training than that of 
the person actually performing the work. But I think that it 
does not have the same panache that an AMT card has in the 
aviation industry.
    The other thing I believe in the aviation industry is that 
if you miss things, there are penalties if you miss them. I am 
unsure as to what rules could be applied, barring a 
catastrophic event, which we I think we were lucky here. There 
can be incentives for people to do the right thing.
    Mr. Oberstar. Mr. Chairman, you have been very generous 
with the time. I just have one more. At the end of all this 
process, we may be making the case for hearings on safety 
procedures generally in railroading and the qualifications and 
status of rail maintenance providers. But Mr. Jamison, the IG's 
office staff seems to feel these cracked spokes and webs would 
not have been found on a typical FRA routine maintenance check. 
What is a routine maintenance check? How does that differ from 
the inspection that led to finding the cracks in the disc 
rotors? What is the difference there?
    And again, I know in this specification sheet there are 
certain comments, at this level, such and such is inadmissible. 
Well, we know the catastrophic failure on the Aloha Airlines 
737 when 18 feet of the roof of that aircraft bound for 
Honolulu ripped off, it was because of the propagation of a 
hairline crack that could be discovered only by eddy current 
technology inspection. That's the level of inspection that we 
need in aviation and on a safety critical part, it seems to me 
that that's also the level of attention to detail that is 
necessary.
    Mr. Jamison. Congressman, first let me respond to the 
"routine inspection" question. It is my belief that the 
inspection requirements that are in place now would have picked 
this up if the proper training was done and the proper 
inspection techniques were conducted. So, for instance, we 
require a daily inspection of the undercarriage of the Amtrak 
trains for Tier I Class or Tier II Class I brake inspections.
    But to your point, I by no means have your expertise on the 
aviation industry. But I also believe that they have learned 
greatly from where they have had equipment failures. That is 
what we are focused on, to try to make sure that we learn from 
this. The failure in the spoke has not been a common problem 
from FRA's experience in the railroad industry, even though 
there have been isolated instances. Now that there is a common 
problem specifically with this high-speed equipment, we need to 
go back, reevaluate the inspection, testing and maintenance 
plan that we approved, make sure it is appropriate, given the 
design, the loading and the possible cracks that may occur in 
this equipment.
    Mr. Oberstar. Thank you.
    Mr. Chairman, in conclusion, may I ask unanimous consent 
for Ms. Norton to ask questions at the appropriate time in the 
proceedings?
    Mr. LaTourette. Absolutely.
    Mr. Simmons.
    Mr. Simmons. Thank you, Mr. Chairman, for having this 
hearing, and I have listened with great interest to my 
colleagues, Mr. Oberstar, Mr. Menendez in their discussions of 
this problem.
    Mr. Chairman, we have more than a broken brake system here. 
We have a broken train system here. I think the whole system is 
broken and I think perhaps this problem with Acela is 
fortuitous, because it focuses our attention and the attention 
of everybody like me who is interested in providing good train 
service, passenger rail service in America on the fact that we 
need some major surgery and major overhauls here.
    Let me just back up to some of the things Mr. Menendez was 
saying. The history of this project and decisions that have 
been made over the last 10 years, Amtrak has known about the 
problems of putting a high speed train on low speed tracks for 
years and years. I served on the Connecticut transportation 
committee, was ranking member back in the days when these 
decisions were being made. I remember when the ICE was running 
these lines and when the X-2000 was running these lines.
    I also remember that Amtrak made a decision following a 
study, I believe, in 1988, that they could never run high speed 
along the shoreline of Connecticut. There were nine full turns 
of circles between Westerly and New Haven. It was impossible. 
So this study recommended an inland route where they could 
design a high speed track that would be straight. The decision 
was made not to pursue that because condemning land was 
considered to be so difficult.
    So from the very, very inception of this project, it has 
been known that the shoreline between Westerly, Rhode Island, 
and New Haven, with nine full circles, was not congenial to 
true high speed.
    Secondly, the train set that was decided upon was 
unanimously rejected by the Connecticut General Assembly 
Transportation Committee. They recommended test trials for a 
number of years using the turbo jets which would have avoided 
the tremendous cost of the catenaries and could have 
demonstrated whether there was a market for high speed. That 
recommendation, that unanimous recommendation of the State of 
Connecticut was rejected outright by Amtrak. They went ahead to 
develop their own tilt train.
    Again, the fact that they were going with a tilt train 
shows that the knew there was a problem with winding tracks. 
They knew that winding tracks or more than three degrees of 
turn on a high speed track stresses the system. The systems are 
generally not designed for that. They designed the train to be 
crash-proof with freight trains, because freight trains run 
along the line, but that made it twice as heavy. So you are 
putting a substantial amount of more weight on these train 
sets.
    Then if you look at the deployment schedule, where the 
wheels, since September of 1999, the wheels were wearing out 
too fast, they were hunting or oscillating, in 2000, bolts were 
broken and in December of 2000 the trains ran for a day then 
broke down, then there were cracked yaw dampers, etc., etc. My 
wife rode the Acela a month ago. When she got off in Boston and 
asked the train master what was the smell, and he said, it's 
the brakes, nothing wrong with that, they do that all the time.
    Mr. Chairman, this project has been fraught with 
difficulties for a long period of time. And the problems of 
this project go way beyond the problems of a single piece of 
equipment failing. I think that we have systemic failures here 
that in fact led Mr. Gunn to say in 2002, or to question in 
2002 whether Acela was worth its cost for Amtrak to operate, or 
whether they should go back to conventional trains and the 
Metroliner in fact can operate within 10 or 15, maybe 20 
minutes of the time of the Acela.
    We have a serious, serious set of problems here. And I am 
very concerned about it. I am concerned about the fact that the 
summer season for train passengers in Connecticut and New 
England generally is the season of tourism, you have high 
ridership and we're not going to have these trains on the 
tracks. I am concerned that workers are transferred from one 
train set to another.
    I just can't express to you my distress over what I have 
heard here this morning, over what I have observed over the 
last 10 years. I would hope, Mr. Chairman, that we could use 
this hearing and this situation as a springboard for a 
substantial and comprehensive review of every aspect of this 
system with some serious reorganizational recommendations to 
follow.
    I don't know whether any of the panelists want to respond 
to my comments. I do have questions for the record, but I know 
we are short of time. But that is where this Amtrak supporter 
seems himself at this point in time, and it's not a happy 
situation that I see for myself.
    I yield back.
    [The information received follows:]

        The Department agrees that part of the problem is 
        organizational. Amtrak does not recognize its limitations and 
        tries to do too many things and thus does not have the focus or 
        resources to do many things well. The Acela procurement is an 
        excellent example of how these shortcomings now hamstring the 
        corporation's ability to meet its transportation mission in a 
        cost effective and reliable manner. The Administration proposes 
        to turn Amtrak into a pure operating company and thus remove 
        from management the obligation to oversee maintenance of the 
        most complex rail infrastructure in the Western Hemisphere. 
        This in turn will permit the company to focus on serving 
        customers and maintaining the necessary equipment for its 
        service. Just meeting the complex challenges associated with 
        that truncated mission would stretch the capabilities of most 
        well run transportation companies.

    Mr. LaTourette. I thank the gentleman very much.
    I have been advised that when the House goes back into 
session, they are going to reopen the vote on the previous 
question. But if you have already cast your vote on the 
previous question, there is no need to return. So it is my 
intention, unless someone has a big problem with it, to just 
plow ahead.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to ask a question or two.
    First, on this hearing, I know that the witnesses feel as I 
do that the loss of the Acela could not have occurred at a 
worse time, when many of us are here on both sides of the aisle 
trying to save Amtrak, and have you only real money-maker go 
out on you this way. We will go a little further into how to 
keep that from happening in the future. I don't understand how 
the folks who built it, and I do understand, I do understand 
that we've got a custom built Acela here. Nevertheless, 
particularly sitting here where I am, where the Acela is not 
only good for you, it is good for the entire east coast, I can 
only say, what next.
    I sat in on, because of the good graces of the Committee, I 
sat in on a hearing on rail safety that was held last year. At 
that time, I was very, very concerned, post-Madrid, sitting 
here with Union Station in our face, the Senate very close to 
Union Station, trains running under Union Station, my own 
Amtrak safety people had come to see me months before about 
their concerns, just to alert me.
    I asked, I believe it was Chairman Quinn who was chairman 
at the time, that you have a plan, a cohesive plan by the end 
of the year. The chairman was adamant he wanted that plan by 
the end of the year. So far as I have been able to tell, no 
plan was forthcoming for securing passenger rail. That's very 
concerning, considering that where the people are is really not 
in aviation, it's really on rail and subways and light rail. 
Huge numbers of people every day get on.
    In my own questioning to the Administrator at the time, it 
was clear that a lot of work had been done with operators all 
across the country, a lot of work. Of course, there was nothing 
coherent for any of us to look at. And it looked like it was 
each man for himself, although people sat around and talked to 
each other and apparently something close to best practices was 
being developed, so it didn't seem like a big thing to get to 
Congress what it asked for, which was a plan for securing rail 
travel.
    The Homeland Security Committee, on which I also serve, I 
am on this full committee as well, had a reauthorization markup 
just last week, ten days ago. I got an amendment in that bill, 
and I got some report language in the bill. The amendment 
should help you do what I think you can easily do, you haven't 
been just sitting there not talking to operators all around the 
country. It simply would have, it says the Department of 
Homeland Security, actually, the Homeland Security Committee is 
already talking with the staff of this Committee, because 
obviously the two are intertwined here.
    But essentially it would have the Administration develop 
passenger security best practices to be used by operators on 
rail, light rail, etc., and a national plan for public 
outreach, an awareness, so that employees and the public alike 
can have a sense of what they ought to do on rail travel the 
way many of us understand what to do on air travel. That 
wouldn't cost anything, probably already going on, but again, 
there is nothing coherent that a member of Congress could look 
at and do oversight on. That's the first thing.
    The second thing is the embarrassment of the CSX 
litigation. Here we have a local jurisdiction trying to reroute 
trains that are in your jurisdiction, sir. The reason is, 
nobody could get your agency or the Department of Homeland 
Security to come up with a plan of any kind that they are 
willing to talk with the District about for making sure that 
trains which travel carrying toxic materials within four blocks 
of the Capitol were in fact properly secured.
    There was unrebutted testimony at the hearing that if one 
of these trains, one car on this train was successfully 
attacked, you could have an explosion with gases emitted for as 
many as 14 miles in either direction, and if it was the right 
car at the right time with the wind blowing at the right time, 
as many as 100,000 people could die within a half hour. After 
South Carolina, I don't think anybody can doubt what a well-
planned attack of that kind would do.
    I was able to get report language in that really begins at 
the basics on the CSX type matter. All of the concern has gone 
off on rerouting. Everybody knows that you are not going to be 
able to reroute trains in the United States very much. Perhaps 
some rerouting can be done around the Capitol, I don't know. 
The National Capital Planning Commission is looking at whether 
or not the Federal Government could do something with some 
tracks in that regard.
    But clearly, rerouting is probably an impractical way to 
deal with the situation nationwide. So what you need is a 
Federal agency to step up to the plate, so that we don't have 
what cities are now beginning to do all over the country. They 
are all saying, okay, let us do something like the District of 
Columbia did. And to show you just how compelling what the 
District of Columbia did was, it won at the trial court level 
on commerce grounds, it was overturned, at least at the 
preliminary injunction stage, at the court of appeals level.
    But the court looked at what your agency said it had done. 
It must have said the equivalent of, is this it? Because it 
said, a local jurisdiction has the right to protect itself from 
such a deadly risk.
    I give you that predicate to say first, do you have any 
objection to this language that I hope will remain in the bill. 
It was passed by the Committee concerning the development of a 
coherent set of written best practices to be used by operators 
of appropriate facilities and a plan for public outreach and 
awareness for employees on the one hand and passengers on the 
other. Is that something you think could be appropriately done 
by the agency so that for example, I was pressed to make it an 
amendment because no plan, so far as I could tell, had been 
received.
    I would like first to have an answer on that, and then I 
would like to ask you a question on what to do about the CSX 
type problem.
    Mr. Jamison. Ms. Norton, I am not familiar with your 
amendment. But I can tell you this. I feel like what you are 
asking for, in the way you described it, has already been done.
    Ms. Norton. So where is it, sir?
    Mr. Jamison. Well, you can go to the--
    Ms. Norton. Why wasn't it submitted to this Committee as 
the Chairman asked last year?
    Mr. Jamison. I wasn't at the Committee hearing, first of 
all, and quite honestly, I don't even know if the agency that 
prepared it, which I am getting ready to tell you about, was at 
that hearing.
    Ms. Norton. The agency was at that hearing. The Railway 
Administration was at the hearing.
    Mr. Jamison. The Federal Transit Administration, of which I 
happen to be the Deputy Administrator, shortly after 9/11, 
established a comprehensive action plan for passenger rail 
security. As you mentioned, public awareness is a key issue. It 
is an issue that was brought up in Madrid, and one of the 
fundamental, basic things that you have to do to make sure that 
you protect passenger rail. The comprehensive national public 
awareness campaign was rolled out by the Federal Transit 
Administration, approved materials were disseminated to every 
public transit agency in the country. Technical assistance was 
provided to all those transit agencies to not only conduct 
vulnerability assessments, but to make sure that they had 
proper training in place to educate their employees on how to 
spot suspicious behavior and that they have public awareness 
messages across the country.
    So a lot of that stuff has been done. I will reiterate, 
though, that DHS has the lead in security. Those "best 
practices", as you call it, were developed and comprehensively 
laid out in a top 20 action item list that is still posted on 
the Federal Transit Administration Web site. I contend that 
every transit agency in the country is aware of that list.
    Ms. Norton. Could you submit to this Committee a copy of 
all the documents you have just described?
    Mr. Jamison. Absolutely.
    Ms. Norton. Thank you very much.
    Ms. Hecker. Ms. Norton, I just wanted to add to actually 
after that hearing, Mr. Quinn, as well as several members of 
the Senate, asked GAO to do a global analysis of best practices 
in rail and transit security. That work is ongoing. As a 
successor, we briefed Mr. LaTourette's staff. That study is due 
out that summer. We basically covered eight European capitals 
and all of the rail manufacturers and operators and three Asian 
countries. We visited every transit organization in this 
country, as well as Amtrak. We will likely have comprehensive 
recommendations at that time. I know it is not speaking to your 
legislation that would direct that kind of leadership, but we 
will have some conclusions, and with the clearance of the other 
members, we would be happy to brief you on that.
    Ms. Norton. That does speak directly to it, and I am glad 
that you are looking at it, as other countries have also 
engaged in it. Finally, on the report language, the first 
responders, the fire chief, for example, in D.C. said he had no 
idea when these substances were coming through. At the very 
least, apparently the League of Cities the mayors said they 
wanted that kind of notification. So this language goes to 
prenotification of shipments to local law enforcement agencies, 
protocols on effective communication between shippers and local 
authorities, training of employees in handling hazardous 
materials. Really the basics.
    Do you have any problem with that, or are you going to tell 
me that's already been done? Because the litigation came 
precisely because the District of Columbia did not have any 
information on what to do. And here you have a local 
jurisdiction that moved out on its own and now has a whole 
bunch of local jurisdictions moving out on its own, showing 
that there is a void, a gap in leadership here.
    Mr. Jamison. I just want to clarify. The comments I was 
making before were strictly related to passenger rail, and a 
lot of the work that I headed personally at the Federal Transit 
Administration. So I'm intimately aware of that, would be happy 
to share that with the Committee.
    As far as prenotification goes, Graniteville taught us a 
lesson about not only security but also safety around hazardous 
materials and the impact that TIH can have, particularly 
chlorine can have, in a situation. However, I have concerns 
about prenotification. As a result, we are accelerating the use 
of our research resources, with those of the Department of 
Homeland Security, the Office of Domestic Preparedness, to come 
up with a Railinc demonstration project that actually would 
allow us to have consist information available in a push-pull 
type of system. So, for instance, if there is an accident in 
the vicinity of five emergency responders, automatically they 
would be in a database, and the information of what's on that 
train would be pushed out to them, as well as giving them the 
opportunity via Internet or other opportunity to go in and pull 
that information to them.
    However, I do have a lot of concerns about prenotification. 
There were 1.7 million hazardous material shipments by rail in 
the United States in a year, and I don't want to overburden or 
take away the importance of key data with a constant stream of 
information that would keep coming to emergency responders who 
have a lot of other critical work to do. More importantly, I 
think it's critical that we give them the access to information 
when they need it most.
    Ms. Norton. If there are appropriate guidelines or 
regulations, do you know what you would get? You would get 
responses back from agencies and you would be able to work that 
out. In the absence of that, you have a local jurisdiction out 
on its own. I must tell you that their notion of rerouting was 
not my idea of the only available option. But when people who 
are sitting where they are sitting, without any leadership, 
think about what to do, they can only think about move the 
train away from where it is.
    So I would simply ask you, I am very pleased that you 
responded as you did on prenotification. What it does is to 
show the importance of publishing something, so that local 
jurisdictions can speak back to you and we can iron out this 
problem before you get this proliferation of concerns already 
developing, surely you must know that, already developing in 
cities and towns around the United States. I am confident this 
language will remain, because it is report language, and I want 
to assure you that I am personally going to make it my business 
to follow up on both of these issues I have raised at this 
hearing.
    Thank you very much, and thank you, Mr. Chairman.
    Mr. LaTourette. I thank the gentlelady. We are going to 
bring this panel to a close. I want to thank each of you, and 
Ms. Hecker, we look forward to your continued work and 
appreciate the work you have done already. Mr. Weiderhold, I 
speak for members on both sides of the aisle, that your 
investigation to this point has been very impressive and we 
look forward to your further work.
    And Mr. Jamison, I know that your role as Acting 
Administrator is about to come to an end with the confirmation 
of the Administrator. You go with our thanks and my thanks for 
your service to the country to this moment in time in filling 
that role on an acting basis, and good luck with the addition 
to your family. Thank you for being so patient. Thank you all.
    While we wait for the second panel, the House has notified 
those who do not have access to the outside communications, it 
indicates an apparent air space violation by an unidentified 
aircraft over Washington today prompted the evacuations that we 
just encountered. F-16 fighter jets scrambled to intercept the 
aircraft, it was a small, single-engine plane forced to land in 
Frederick, Maryland. There are two subjects now in custody and 
being interviewed by the Secret Service. That's what happened 
to us a little bit ago.
    It is now my pleasure to welcome the second panel today. 
The second panel will be comprised of William Crosbie, who is 
the Director of Operations at Amtrak; William A. Spurr, who is 
the President of Bombardier Transport of North America; and 
Francis Jelensperger, who is the President of Alstom 
Transportation, Inc., of America. I want to thank all of you 
for coming here today. I apologize for the deadline.
    I just notified the members of the Subcommittee, there was 
a Highway Subcommittee meeting that was supposed to start at 
2:00 o'clock. They are now going to wait for us. If we can sort 
of shoot for a 3:00 o'clock out time from this, I don't want to 
short anybody the opportunity to ask any questions, but if we 
can sort of aim towards 3:00 o'clock, I think we can facilitate 
our brethren on the Committee.
    I would say to the panel, this is a pretty funny place, 
Washington, as most of you know. While we were outside in the 
parking lot, some of the wags were suggesting after the second 
panel was sitting in the audience and saw Mr. Mica's questions 
of the first panel, perhaps we should check your fingerprints 
on the smoke detectors and fire alarms in the building.
    [Laughter.]
    Mr. LaTourette. I'm sure that that was not right. But I 
again thank you very much for coming. I want to say, as an 
editorial comment, that when the Inspector General was here, I 
am personally impressed that all three of your organizations 
are cooperating fully with the IG and what he is attempting to 
do. I think you are to be commended for it. He made the 
observation that one entity not represented here today may be 
lawyering up, and while I understand business concerns, I think 
it is commendable that all three of your organizations have 
stepped up to the plate and are helping us try to find a 
solution.
    So with that, welcome, and Mr. Crosbie, we look forward to 
hearing from you.

    TESTIMONY OF WILLIAM CROSBIE, SENIOR VICE PRESIDENT OF 
  OPERATIONS, AMTRAK; WILLIAM A. SPURR, PRESIDENT, BOMBARDIER 
     TRANSPORT OF NORTH AMERICA; AND FRANCIS JELENSPERGER, 
       PRESIDENT, ALSTOM TRANSPORTATION, INC. OF AMERICA

    Mr. Crosbie. I am just going to walk through a series of 
slides for the record, we would like to submit them for the 
record, which has some photographs that you might be interested 
in. I will do that quickly and then I would like to move on to 
my testimony if that's okay.
    The first slide there, photograph, gives you a sense of the 
shop environment. It is a modern facility and the train set 
over a pit. This area here is the undercarriage of the train, 
the wheel axle set, there are three rotors or discs on an axle. 
That is something you may not have heard until now.
    When we talk about the friction surface, Mr. Weiderhold 
mentioned that, there is a good photograph of it there. This is 
what is referred to as the web, and you can see the spokes in 
here.
    This is a good example of the type of crack that you would 
see. You can see that one we have submitted, it is barely 
visible to the naked eye. Now we know where to look, so your 
mind and eye can play some tricks on you as to is it there or 
isn't it there. That is the same spoke a little bit closer in.
    Then this is a different spoke. You can see that that crack 
is clearly visible. So what I wanted to give you today is a 
sense of the degree of variation in visibility.
    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to come before you for an update on the status of 
Amtrak's Acela service. This afternoon, I am going to address 
what happened last month regarding our decision to pull the 
Acelas, what is being done to return the trains to service and 
what the financial impact has been to date. I am Williams 
Crosbie, Senior Vice President of Operations for Amtrak. I 
joined Amtrak in January 2003.
    I am a professional electrical engineer with over 20 years' 
experience in railroad operations, maintenance and engineering. 
Let me begin by saying that this incident has not affected our 
resolve to return Acela to service. Acela was introduced nearly 
five years ago. The train is popular among our passengers and 
ridership has grown from just under a half million in its first 
year of operation, 2001, to more than two and a half million in 
fiscal year 2004.
    Last year, it accounted for nearly $295 million in ticket 
revenue, or approximately 25 percent of all Amtrak ticket 
revenue. Its popularity among passengers was continuing this 
year until the trains were sidelined in April, with revenue up 
10 million and ridership up 7 percent through March against the 
same period last year.
    In the early morning hours of Friday, April 15th, I was 
contacted by Amtrak's high speed rail master mechanic and told 
that cracks in the spokes of the brake rotor had been found. 
The first crack was found following a post-run inspection of 
one train set. The initial Amtrak high speed rail mechanical 
engineering assessment was that the defect existed on every 
train set inspected to that point, and that it likely existed 
across the fleet.
    Amtrak's high speed rail maintenance and engineering staff 
recommended to me that the train sets be taken out of service 
because based on their assessment, it could be unsafe to 
operate the train sets. After reviewing their findings in 
detail, I concurred with their recommendation and ordered the 
entire fleet of Acela train sets out of service.
    Simultaneously, I also ordered an immediate fleet-wide 
inspection of all train sets to detail and document the cracked 
spokes by train set, by car number, axle number and rotor 
number. Each of the 6 coaches of the 20 train sets has 12 
broken brake rotors. That means the full fleet has 1,440 
rotors. Of those 1,440 rotors, approximately 300 cracks were 
found on 250 of the rotors. These cracked spokes, many of which 
were not visible to the naked eye, were found on every train 
set. At a meeting on Friday, April 15th, all parties agreed 
that taking the Acelas out of service was the right decision.
    These train sets were assembled in the United States for 
Amtrak by a consortium of Bombardier Transportation of Canada 
and Alstom of France. In addition to the 20 train sets, the 
consortium provided 15 other high horsepower locomotives, 3 new 
maintenance facilities, and through its subsidiary, the 
Northeast Corridor Maintenance Service Company, better known as 
NEC-MSC, a service contract to maintain the equipment. Under 
this service contract, NEC-MSC is obligated to inspect, service 
and maintain the equipment with NEC-MSC management supervising 
Amtrak employees.
    The brake systems used on the Acela were supplied by Knorr, 
a subcontractor of the consortium, and the discs or rotors at 
issue were supplied by Knorr and SAB WABCO. Under our 
management services agreement, NEC-MSC is responsible for 
inspecting and maintaining the train sets and managing the 
inventory of spare parts. When this incident occurred, we 
discovered that there were only 64 spare rotors on hand and 
none on order.
    Consequently, this required Amtrak to deliver the news on 
April 20th that the train sets would in all likelihood not 
return to service until some time this summer, and then only 
gradually. We then moved on parallel paths to determine the 
cause of the problem and the solution, and to quickly begin a 
service recovery plan. The absence of Acela initially left a 
substantial hole in our northeast corridor service. On weekdays 
we had been running 15 round trips between Washington and New 
York, 11 between New York and Boston. These trips accounted for 
average weekday revenue of $1 million a day.
    Moving quickly with replacement Metroliner service, we 
reduced the daily revenue loss by more than 50 percent. 
Starting the week of April 25th, we were able to offer nearly 
hourly service from 6:00 a.m. to 6:00 p.m. in both directions 
between New York and Washington with Metroliners. Starting last 
week, we expanded that to 7:00 p.m. in both directions, and 
added two Metroliner round trips between New York and Boston. 
So we now have 14 Metroliner round trips south of New York and 
2 round trips north of New York. We did all this by a 
combination of actions, including the redeployment of equipment 
from throughout the country, reducing the shop count of our 
other service cars and borrowing equipment from third parties.
    The Metroliners have performed well. Since starting their 
full schedule on April 25th, on-time performance as of May 9th 
was 83 percent. A good day for us is typically between 85 and 
90 percent with the Metroliners. This is equivalent to the 
Acela's on-time performance in March, which was 83 percent. The 
trip time also compares favorably with the run time that is 
within 10 minutes of the Acela express.
    However, despite quick action to redeploy equipment and 
construct a Metroliner schedule that meets our passengers 
expectations, the loss of revenue has been and will continue to 
be substantial until the train sets are returned to service. 
Our estimate is that net of expenses, we will lose somewhat 
more than a $1 million a week that the Acela express trains are 
out of service.
    This has the potential to seriously jeopardize our end of 
fiscal year 2005 cash balance. Right now the projection stands 
at $32 million before considering the impact of Acela service 
disruption. This incident may well exhaust our cash by the end 
of the fiscal year. We are taking every opportunity to mitigate 
the financial consequences of this incident. Also the FRA and 
U.S. DOT, who are on our board of directors, are up to date 
with daily cash on hand reports as well as monthly cash flow 
projections.
    The Subcommittee may also be interested in knowing that 
under the maintenance agreement, NEC-MSC may be assessed 
liquidated damages of $10,000 per missed trip, although 
typically liquidated damages are subtracted from the regular 
monthly payments that we make to NEC-MSC for its services. As 
of April 15th, Amtrak has not made any payments to NEC-MSC.
    We do want to know what caused this. And on April 15th, I 
asked Fred Weiderhold, Amtrak's Inspector General, to 
investigate this matter for us. I believe he is asking all the 
right questions. The IG is independent, experienced and 
professional. And you have the benefit of his testimony today.
    As I said earlier, Amtrak's focus is on seeing that the new 
parts are procured, satisfactorily tested and installed, the 
appropriate spares are in inventory, and that the trains are 
returned to service. Acela express is both popular with our 
passengers and is a very important part of our bottom line.
    This concludes my testimony and I look forward to your 
questions.
    Mr. LaTourette. Thank you very much, Mr. Crosbie.
    Mr. Spurr, thank you for coming and we would like to hear 
from you.
    Mr. Spurr. Mr. Chairman and members of the Subcommittee, 
good afternoon. My name is William Spurr. I am the President of 
Bombardier Transportation for North America.
    Bombardier appreciates the opportunity to appear before the 
Subcommittee today and discuss issues related to the recent 
grounding of the Acela train sets. You have my written 
statement, it is part of the record.
    The consortium of Bombardier and Alstom fully understands 
the importance of the issue and the impact it is having on rail 
transport along the northeast corridor. I am here today to 
reaffirm our commitment to finding a solution that brings the 
Acela equipment back into service as quickly as possible while 
at the same time ensuring public safety.
    As is clear from the statements of the preceding panelists, 
the comprehensive analysis of the situation is underway. We 
expect to know more as analysis and testing winds down toward 
the end of May. We are pressing Knorr and their sub-suppliers 
to identify and correct the root cause of this issue. Knorr is 
currently subjecting the disc to a strenuous battery of testing 
at their labs in Munich, in Germany. There are some preliminary 
results but it would not be appropriate to discuss them until 
the conclusions are finalized.
    We are also working with the parties to conduct field 
testing of the component using one Acela train set in operation 
on the NEC soon. Rather than speculate on what the test may 
show when completed, I will confine my oral comments to what we 
know to be facts and to the process now underway to return 
these cars safely to service.
    With regard to the facts, I want to address certain 
misconceptions that have arisen in recent days. First, this is 
a fundamental component performance issue, not a maintenance 
issue. The brake disc spokes do not have hairline fissures 
because of the lack of maintenance. The problem arose due to 
design, manufacture or environmental factors. The root cause 
analysis will tell us whether the problem is design, 
manufacturing or the operating environment or a combination of 
these factors. But it is not a lack of maintenance. No 
maintenance as such is required for the disc spokes.
    Second, the grounding of the Acela fleet is not due to a 
lack of spare parts. Amtrak and the consortium have on hand 
ample spares for all regular maintenance requirements. No 
railroad or manufacturer can be expected to carry spares to 
cover a fundamental problem like this, in which virtually every 
component in the fleet has to be replaced all at once. That 
would be like requiring an auto manufacturer to equip every car 
with four spare tires. The level of inventory available to 
Amtrak was based on historical usage and is in line with 
standard industry practices.
    This was indeed a completely unexpected development. 
Bombardier contracted with Knorr Brake Corporation to deliver a 
brake system and components in line with Amtrak's 
specifications. Knorr was well-known as a reputable supplier in 
the industry, used by many rail equipment manufacturers. 
Bombardier has worked with Knorr successfully on numerous 
projects. We had every reason to believe that the system would 
perform properly.
    Now that I have spoken to what the issue is and is not, let 
me spend a few moments on our approach to resolving it. We are 
pursuing three options in parallel. The three options are each 
contingent, of course, on Amtrak and FRA approval. First, we 
are developing an approach to recertify the discs we have on 
hand for continued use. This would be an interim solution to 
get as many trains back in service as soon as possible. Trains, 
of course, would be closely inspected on a daily basis until a 
permanent solution was achieved.
    Second, we are pressing Knorr and its sub-suppliers to 
secure new discs of the same design as quickly as possible. And 
again, this would be also a temporary solution. Finally, we are 
looking at the potential for using completely a different brake 
disc design produced by Knorr itself. The design has already 
been pre-qualified as a replacement part by Amtrak and would 
serve as an interim solution. Knorr has committed that it can 
produce brake discs of the new design and start delivering them 
in June 2005.
    The objective behind these parallel approaches is to secure 
a solution that ensures public safety, gets as many train sets 
into service as soon as possible and ultimately arrives at a 
viable permanent solution to the issue.
    In closing, let me once again stress Bombardier's 
commitment to resolving this issue quickly and safely. Since 
the fissures were discovered, Bombardier has been cooperating 
fully with the FRA, Amtrak and the Inspector General of Amtrak. 
Last week, for example, NEC-MSC, the Northeast Corridor 
Maintenance Services Company, held jointly by Bombardier and 
Alstom, met with the Inspector General of Amtrak. We supplied 
documents and the Inspector General's staff interviewed 
privately maintenance employees.
    We will continue to cooperate fully with all parties, 
including the Inspector General of Amtrak. It is also in our 
interest to go to the bottom of this and understand exactly 
what happened.
    Thank you to the members of this panel for inviting us to 
participate today. I will respond to any questions you may 
have.
    Mr. LaTourette. Mr. Spurr, we thank you very much.
    Mr. Jelensperger, thank you for coming and we look forward 
to hearing from you.
    Mr. Jelensperger. Mr. Chairman, members of the 
Subcommittee, thank you for the opportunity to appear before 
the Subcommittee to discuss issues related to the Acela train 
sets. We are pleased to be here this afternoon with our 
colleagues from Amtrak and Bombardier, and together we are 
fully committed to ensuring a long-term, expeditious and most 
of all safe solution to the issue at hand.
    Bombardier-Alstom, acting in a consortium, contracted with 
Amtrak in 1996 to provide 20 train sets and 15 high horsepower 
locomotives and for providing maintenance services for the 
Acela train sets in joint venture. Alstom was approximately 28 
percent of the value of the consortium contract. Our scope of 
work was focused primarily on supplying the propulsion system.
    Alstom, working together with Bombardier, is fully 
confident that our team will resolve the current situation by 
working with Amtrak, the Federal Railroad Administration and 
the consortium suppliers to get the equipment back into service 
as quickly as possible. As we do so, passenger safety continues 
to be our utmost priority for us all.
    Alstom is committed to working closely with Bombardier and 
its subcontractor, Knorr Brake, to resolve the issue as 
Bombardier presented in its prepared statement. I have had an 
opportunity to review the statement of my colleague from 
Bombardier and can say that Alstom is in agreement with the 
substance of Bombardier's statement.
    We understand and appreciate Congress' concern in this 
issue. Alstom will continue to work closely with Amtrak and 
Bombardier to rectify the situation quickly, effectively and 
most importantly, safely.
    Attached to our prepared testimony are the responses to the 
questions raised by the Committee. I would be pleased to answer 
any additional questions the Committee may have.
    Mr. LaTourette. I thank you very much, and I thank all of 
you for your testimony.
    Mr. Crosbie, I think I want to start with you. When the FRA 
was here, we were talking about the instrumented tests, I guess 
we will call them. They are scheduled to start next week?
    Mr. Crosbie. We are working through the inspection, the 
test procedures. Once we get the final procedures finalized, 
and it is the responsibility of all parties, Amtrak included, 
and the FRA, if that goes through as planned, we hope to have a 
test through the weekend.
    Mr. LaTourette. Okay. And Mr. Spurr was talking about 
perhaps, and I think the Inspector General also talked about, a 
redesigned or another disc that is being manufactured by Knorr. 
Is that currently being tested somewhere in the world as well?
    Mr. Crosbie. That is being tested. We are reviewing the 
design. There are items such as finite element analysis of the 
disc and Amtrak will be certainly engaged in testing it. We 
have done some laboratory tests in Munich, Germany, along with 
the existing disc.
    The tests, I want to be clear, though, in terms of the 
tests in the corridor, we are really testing to see what the 
lateral forces underneath the train set. It is not a specific 
disc that we're testing.
    Mr. LaTourette. Right. I asked you this the other day when 
you came to visit me, and while the Inspector General will 
complete his work and we will have some answers about how we 
got from here to there, I think what everybody, at least that 
we represent, want to know, aside from the money that it's 
costing, which you have already testified to, and not holding 
you to any certain date, but if things go swimmingly, when do 
you think the Acela trains are going to be back in operation?
    Mr. Crosbie. That is a very tough question to answer. I 
think the next two weeks are really going to tell us when they 
will come back. We need to complete the tests on the northeast 
corridor to understand those lateral forces underneath the 
train set. That will really tell us which disc we should be 
using.
    A concern I have is that the existing disc, once we 
understand what's going on underneath the train set, may not be 
appropriately designed and we may need to move to the 
alternative disc that's been suggested. Each one has its own 
production rate. From that you would be able to determine when 
the train sets will be back in service.
    I am sorry I can't give you a specific date. It will be 
summer, June, July, with the information I have right now.
    Mr. LaTourette. Would you concur, I thought there was some 
good news today, and that is that the people that are supposed 
to be working together at least seem to be working together at 
this moment in time to solve the problem?
    Mr. Crosbie. Absolutely. For all the corporations involved, 
there has been one focus and that is getting the train sets 
back in service.
    Mr. LaTourette. I was interested in this data flow 
schematic. I have to be honest with you, this does not look 
like something that I expected to see, as to how this will 
work. Why, if you can tell me, was this set up so that NEC-MSC 
is responsible for the maintenance, I understand originally 
until 2013? And I will want to talk to you about that in a 
minute. But it's Amtrak employees who are on the shop floor. 
Who designed this?
    Mr. Crosbie. I was not with Amtrak at the time when they 
made those decisions. But the people that were in place told me 
that they felt that at the time, they did not necessarily have 
the work force in place to take on the high speed train set. 
There were a number of other reasons, in terms of using the 
agreement employees, the unionized employees. That's around 
some labor agreements as well.
    So it was a combination of things, from what I understand. 
Again, I was not there at the time, but it is not the way I 
would have put it together.
    Mr. LaTourette. Right. That gets to my next question, and 
that is, you and Mr. Gunn are considered by many to be railroad 
experts. You have earned that, given your experience. Given 
that experience, how many times have you been in a position to 
contract with outside firms, such as NEC-MSC, to perform 
critical maintenance functions on various properties on which 
you have been involved?
    Mr. Crosbie. I have been in this situation many times. The 
one that I have seen that works the best is the operator needs 
to be the one that is responsible for the overall system. That 
includes the train set and all its subsystems as well as the 
infrastructure, everything from track, signals, catenary and 
the like. They need to be the one responsible for that. We like 
to call that a vertically integrated organization.
    What seems to work is picking pieces that you, for various 
reason that you wish to outsource and contract out, but you 
need to retain the knowledge base and the understanding of 
those systems. You may do that because of costs, schedules and 
the like.
    Mr. LaTourette. And the follow-up to that is, given the 
events surrounding the Acela express train sets, do you believe 
that Amtrak is not capable of managing such large and 
technically complex infrastructure projects, or are they?
    Mr. Crosbie. I believe they are capable of managing this. 
And Mr. Weiderhold had mentioned, in terms of new projects, 
fire-life safety is a good example of one that is being managed 
properly. In terms of the Acela train set and taking over the 
maintenance, the reason, we are very comfortable taking over 
the maintenance of those train sets.
    Mr. LaTourette. I think Mr. Spurr indicated that the 
alternative disc, the Knorr disc, I guess I can call it, it's 
my understanding from you and other testimony that the big 
difference is the spokes seem to be turned 90 degrees, which 
may give it better strength.
    There was a June 2005 potential delivery date. Just for the 
purposes of the record, am I correct that the WABCO disc has a 
slower production rate than potentially the Knorr?
    Mr. Crosbie. That's right.
    Mr. LaTourette. Can you just for the record tell us, how 
many WABCO discs do you think you could get in a month if you 
would ask them to send some stuff over, and how many discs do 
you think Knorr can supply ? Have they at least informed you of 
that?
    Mr. Crosbie. They have informed me of that, and they can 
certainly correct me if I get this incorrect, and if there is 
new information. The WABCO disc, as I understand it, can have a 
production rate of between 18 and 25 per week. You have to 
remember there is three per axle. And you can do the math on 
that.
    Mr. LaTourette. Well, I can't, maybe you can.
    [Laughter.]
    Mr. Crosbie. The Knorr disc, I think the initial commitment 
we had was mid-June of 50, then it ramps up to 100 per week at 
mid-July, I believe it is, and then on to 150 discs per week in 
early August. So the production rates are substantially better 
with the Knorr alternative.
    Mr. LaTourette. I think the last question for each of you, 
again when the Inspector General was here, he may be developing 
information that ORX in Altoona, Pennsylvania has either 
documents or witnesses that indicate that the spokes were 
developing cracks between 12 and 36 months ago was the 
observation. I heard him say that that information was 
communicated to perhaps some on this schematic, but it 
certainly didn't get to the shop floor. So first to you, Mr. 
Crosbie, are you, until you heard that or were advised of that 
by the Inspector General, are you aware of Amtrak having any 
information about those findings prior to April 14th or 15th?
    Mr. Crosbie. No.
    Mr. LaTourette. Mr. Spurr and Mr. Jelensperger, the same 
for you on behalf of the consortium?
    Mr. Jelensperger. We had no idea of the litigation before 
last night, in my case.
    Mr. LaTourette. And Mr. Spurr?
    Mr. Spurr. Well, most of the information we got from the 
Wall Street Journal.
    Mr. LaTourette. Right. Welcome to Washington.
    [Laughter.]
    Mr. LaTourette. One thing is bothering me, Mr. Crosbie, 
however, and then I will yield to the distinguished Ranking 
Member. The settlement agreement, I understand why there was 
litigation, I understand why parties would want to settle the 
case. But it has been described to me that the maintenance end 
of this thing, because of the difficulties, is not a money-
maker. So I would understand while the consortium may want to 
get out of the maintenance end of things, my understanding is 
that in a settlement reached between the consortium and Amtrak 
that you moved up, we will see what happens based upon what's 
going on right now, but if everything had gone along fine, that 
you moved up the assumption by Amtrak of the maintenance of 
this fleet from 2013 to 2000, instead of fall of 2006.
    First of all, am I correct that the maintenance does not 
appear to be a money-maker?
    Mr. Crosbie. I would let my esteemed colleagues answer that 
question. But in terms of, for Amtrak, it is part of our 
budget. It's built into the 2005 budget. Maintenance, I would 
let them answer.
    Mr. LaTourette. I'll ask them in a second. But my question 
to you is, I assume they are going to tell me it's not. But if 
I'm wrong, we'll double back.
    Mr. Crosbie. If you are asking in the industry, there are 
other examples where they have made money doing this. It is not 
a lot, though. It is not something that one would invest 
heavily in.
    Mr. LaTourette. Mr. Spurr, I have a follow-up question that 
I want to ask you, but just to confirm, Mr. Spurr, is it a 
money-maker? Have you made money on this contract? My 
understanding is NEC-MSC is a subsidiary of the consortium, is 
that right?
    Mr. Spurr. That's correct.
    Mr. LaTourette. Is this a money-maker for you?
    Mr. Spurr. This particular contract, no, but we have other 
contracts that make money in a similar kind of service 
environment.
    Mr. LaTourette. But not on this one?
    Mr. Spurr. I would say it's just about break-even. You must 
realize that following the agreement, the settlement agreement 
that we had with Amtrak, that the relationship improved 
greatly, so better work could be done. We had a lot of 
modifications to be done, as the GAO explained earlier on. And 
these modifications were basically 80 percent complete right 
now on these modifications. Unfortunately, this new incident 
happened.
    But that will be completed also, once we are done it will 
be a better brake system. But also the reliability of the 
trains was increasing. We are already months where we were 
hitting above the requirement. So things were getting better on 
the operational side.
    Mr. LaTourette. But my question goes to the settlement, and 
my last question to Mr. Crosbie is, if it was part of the 
settlement that Amtrak is going to assume or subsume the 
maintenance responsibilities seven years earlier, what did you 
get for that? That sounds like that isn't what you were 
bargaining for. What did you get for taking over, slicing seven 
years off of a losing maintenance contract?
    Mr. Crosbie. One of the big things that Mr. Spurr had 
mentioned is, first we had extended the warranties with the 
train sets. That was part of the things that we got for it. 
There is a list of items. Obviously we settled the lawsuit. I 
think we did well, all parties did well, I think it was fair.
    We also under the parts area, we reserved our rights on the 
number of options. We have at least two options we can exercise 
under the contract which are very important to us as well. And 
a commitment resolving a lot of down in the details, a lot of 
technical things that were under discussion or debate as to who 
is responsible for them. That is probably the most important 
thing for me as the operations person that got resolved, was a 
commitment to fix those items. We cleared the decks. I am very 
happy to hear that they are going to continue in that spirit.
    Mr. LaTourette. Sure. And not to cast blame on somebody 
that was there before you got there, but again, the settlement 
cleaned up what maybe wasn't the best contract to begin with, 
is that fair?
    Mr. Crosbie. That is a fair assessment of it. What is not 
written in that settlement is, it rebuilt the relationship 
between the parties. I think evidence of that is the recent 
events and the cooperation. I couldn't imagine doing this in 
the middle of a lawsuit.
    Mr. LaTourette. I agree with you, and I said at the outset 
I am impressed that all three of you are not only at the same 
table today but also seem to be working together to solve it. I 
thank you, and yield to the distinguished Ranking Member, Ms. 
Brown.
    Ms. Brown. Thank you. I want to start with Mr. Crosbie, 
too. As you know, I came to the press conference where you 
announced that you were replacing the Acela service with 
Metroliner and regional service to offset revenue losses. How 
has the brake problem impacted Amtrak's ridership level on the 
northeast corridor and what is the financial impact? Are all 
the costs recoverable?
    Mr. Crosbie. In terms of the ridership, it is down, 
slightly down. It is down by 5 to 10 percent. We are very early 
in this, and just for the systems we use internally, we like to 
do what's called a ticket lift and understand that better.
    We are also seeing, though, that it is improving as people 
get used to a regular Metroliner schedule. So we think that at 
the end of this, as we move through the month of May and June 
that it will stay flat to where it was. The financial impact, 
as I mentioned, is roughly a net of expenses. We have taken 
action to lower the expenses where we could in the order of, in 
terms of positions, because we are not running as many trains. 
Total is just over 85 positions have been reduced within the 
organization.
    We have also taken action on food and beverage in terms of 
what we are serving on the trains. That has resulted in 30 
positions that are external to Amtrak, but is a savings to us.
    So net of expenses, it is $1 million a week in terms of the 
net loss.
    Ms. Brown. What is the time frame? For example, on the 
other trains it took how long to come from Washington to New 
York and vice versa. What is the time frame now?
    Mr. Crosbie. On paper it is 12 minutes between Washington 
and New York, the difference. The Metroliner is off the Acela 
schedule by 12 minutes. In all reality, it is typically only 
eight minutes.
    Ms. Brown. Another question. Would you tell me how Amtrak 
and the other organizations involved with the maintenance of 
the train set communicate with one another as problems arise? I 
am most interested in how this work operationally. I understand 
that the maintenance function is the responsibility of the 
consortium, but why didn't someone tell Amtrak about the 
problems if they knew months ago?
    Mr. Crosbie. The last part I obviously can't answer.
    Ms. Brown. We are going to ask the other parties there on 
the last part. Answer what you can please.
    Mr. Crosbie. Obviously we wait, I await the Inspector 
General's final report on this. That is the question I am 
asking as well, how did this happen, how did we not know, who 
knew and why did we get this end result. On an operating basis, 
we have under my direction, we have a regular meeting once a 
month with all the parties. It is referred to as the Acela 
oversight committee meeting. We go through in great detail, 
these meetings last typically a half a day or more. We go 
through all the open technical items, operational items, we go 
through on-time performance.
    So we cover both, to put it in some buckets, if you will, 
the contractual part of this as well as the operational part. 
We have all parties at the table for that meeting. I chair the 
meeting. We have minutes. I have what is typically a month's 
worth of work that we go through.
    It also covers the transition plan. We have submitted this 
this week to the GAO for their review in answer to the request 
for a comprehensive transition plan. They now have that 
document. It details with Gant charts, organization charts, and 
in great detail as to how we are going to get from where we are 
today to taking over the maintenance of these train sets.
    So the communication, what is really frustrating me at this 
point is the communication was certainly there since the 
settlement agreement. It is very unfortunate that this one pie 
e did not find its way into the right hands. I was very happy 
to see, though, that my people, my master mechanic, my 
engineers that night, the night of April 14th into the 15th, 
once they got it, they knew what to do with it.
    I want to be clear on that point. I authorized the train 
sets being taken out of service. It was the engineers, my 
engineers and our maintenance personnel that made a clear 
recommendation. They knew what to do.
    Ms. Brown. Mr. Spurr, can you answer that question? Let me 
just say that just recently, you all run the set from London to 
Paris, don't you?
    Mr. Spurr. Yes, we do.
    Ms. Brown. We just completed it, less than a month ago. It 
was very interesting, because I think it usually takes about 
four hours, and it took us about six. But it was a 
demonstration on the French side, human error, that kept, that 
delayed the train. So there are many factors that trains to not 
run on time.
    But would you tell us a little bit about the consortium, 
your responsibility? I understand it is like subcontracted out 
to you, your company?
    Mr. Spurr. Yes. We maintain the 20 train sets for Amtrak 
under contract with Alstom. We have a joint company to do that. 
We share in that company 50-50. The work in that, under the 
contract, is just in simple terms, we have what we call 
preventive maintenance and regular maintenance, inspections 
that we do on a daily basis for every train set that goes out 
into service. We have 92 day inspections which are regulatory 
and that take a week, actually, it is a very thorough checking 
of the train, every 92 days, all the safety elements. And we 
have annual inspections that take actually around two weeks to 
perform.
    In response to the other part of your question, if 
anything, what's happened is actually extraordinary. So when 
problems like that arise, it is our duty to inform our client 
immediately of the situation. We would, if we knew exactly what 
was happening.
    Ms. Brown. Mr. Spurr, I know that you would not 
intentionally not inform them. But why do you think the system 
broke down? Because from everything that I've heard this 
morning, it was lucky, our luck that we found out about it. So 
it wasn't, even though you are inspecting the train, evidently 
the brakes were not being inspected?
    Mr. Spurr. If you look at the report of the Inspector 
General, the person who actually found what he thought was a 
little rust spot on the disc, on the spoke, actually mentioned 
himself in the report that he has been under those trains 
hundreds of times to do his routine inspections, and he is 
never able to detect anything. Actually, I think these 
hairlines fissures were so hard to see that it's, I think we're 
very happy that they were detected, like everybody else. 
Because it could have been a calamity if we hadn't, that it 
hadn't been checked.
    Nonetheless, these discs have been operating for four years 
actually without one single failure. There are 1,440 of them in 
the system. So statistically, it is a good number to work on. 
But it doesn't mean, I think we were lucky to have found it and 
we are grateful to the inspector for finding the crack.
    Ms. Brown. Yes, Mr. Spurr, but I'm not a mechanic, so 
believe me, I don't know anything about cars or trains as far 
as how they operate. But I have this car. And when something 
goes wrong, it just stops. That's a part of the system. It just 
will not go over five miles an hour if something is wrong with 
the brakes.
    So I guess I'm trying to find out, is that safety 
mechanism, can it be built into the system? Because even though 
you were doing the inspections as you are telling us, it was 
just luck that we found the flaw.
    Mr. Spurr. No, I think the reason we found it was that 
there was an inspector under the car looking at it. So--
    Ms. Brown. But you have already told me that he looked 
several times.
    Mr. Spurr. No, it's just that--
    Ms. Brown. It's something that you couldn't find with the 
naked eye. But I'm just telling you, the computer in my car, it 
just shuts my car down if something is wrong with the brakes.
    Mr. Spurr. The inspections that we do are standard 
practice. It is the same inspections, not in detail, but in 
terms of checking the brakes, the spokes and so on, that we do 
in Europe. We are the largest maintainer of railway equipment 
in Europe ourselves. And it is the same, we checked it, it is 
the same kind of visual inspection that we do for the spokes. 
This component should not be failing. It is a problem of 
component failure.
    It's like if the rims, when you go out and check your tires 
for winter driving, you don't check the rims of the tire, you 
assume that the rim is solid and is built properly. Every now 
and then you send it in, and yes, there is an inspection. There 
is an overhaul coming up on all the trucks, for instance, the 
wheel sets. And at that time, there is an opportunity to do a 
more detailed inspection of the discs.
    Ms. Brown. Right. My understanding is that you are supposed 
to have been operating, doing a certain level three maintenance 
requirement that you do a check so often. You had only 
completed 70 or so of the brakes. That percentage should have 
been much higher.
    Mr. Spurr. Are you talking about spare parts? I didn't 
understand.
    Ms. Brown. Yes, it says, why did the consortium only have 
70 or so brakes, discs in reserve, spare parts, yes.
    Mr. Spurr. No, we had around 40 in reserve, plus we had 
around 14 wheel sets also in reserve. But the wheel sets, 
unfortunately, unbeknownst to us, had the same disc on them as 
the ones that were found to be faulty. So unbeknownst to us, 
the wheel sets that were in reserve were not necessarily all 
adequate directly for usage. And we had also under order an 
additional 40 discs with WABCO.
    So that in actual fact we believe was sufficient to do what 
we call normal maintenance on wear and tear of the discs.
    Ms. Brown. Would you like to add something to that, sir?
    Mr. Jelensperger. Well, I would have answered exactly the 
same way, maybe just a little piece of additional information. 
In the life of these trains, I think we changed 15 discs 
altogether. They were damaged by ice, damaged by other things, 
but only 15 were changed. We had basically enough wheel sets to 
change two train sets. And we had new discs that would have 
been used also. I think we had an adequate supply to respond to 
normal wear and tear.
    Ms. Brown. Well, are you saying that the problems that 
existed were not normal problems, is that correct?
    Mr. Jelensperger. That's exactly right, that's what we 
think. It had nothing to do with maintenance, it had to do the 
quality of the component. And we discovered, thank God early 
enough, that that component was flawed. I guess all we are 
doing together with FRA is trying to find out what has 
happened, what was the cause, and once we knew, once we made 
the tests, we can basically reinstall the discs on these 
brakes, the brakes on the trucks and finally have the train in 
service.
    Ms. Brown. I am just hoping that we can come up with a 
system that just doesn't operate on luck. I yield back the 
balance of my time.
    Mr. LaTourette. I thank the gentlelady. I just have a 
couple more questions, and I will be happy to yield to the 
gentlelady if she has additional questions as well, and I thank 
you for your patience.
    But two things that I wanted to clear up. One I asked the 
FRA, and I just want to get back to you, Mr. Crosbie, as my 
last one. On this disc we're talking about, my understanding is 
that when the contracts were let out, Knorr was the winning 
bidder on the brake assembly but not on the disc? The disc 
comes from WABCO to Knorr and Knorr does the rest of the brake, 
Mr. Spurr, is that right or not?
    Mr. Spurr. No, let me explain it a little bit. We gave a 
contract to Knorr for the total braking system. It was their 
responsibility to select the appropriate disc for the system. 
Of course, they had to go through a qualification process and 
they have to go through a design review process for all the 
components for the whole system. But that's the way it works.
    Mr. LaTourette. I had thought Amtrak did not find the--so 
it's Knorr that didn't even take its own disc, they decided to 
take the WABCO disc? Amtrak, FRA had nothing to do with that, 
Mr. Crosbie?
    Mr. Crosbie. No, they did not.
    Mr. LaTourette. They did not. Okay. The last question on 
the disc is, this new disc that is being tested in Germany with 
the spoke turned 90 degrees, do you know if that was in 
existence at the time of this original contract? Did Knorr have 
such a product or is it a new product?
    Mr. Crosbie. My understanding is it existed some time in 
2002 and 2003, in that time frame. At least there was a design 
and possibly at least two discs on hand.
    Mr. LaTourette. Which is after the construction of Acela?
    Mr. Crosbie. Yes.
    Mr. LaTourette. And the last question I have, and I asked 
the FRA this, but there was a local news report here last night 
about the tunnel that goes near the Cannon Building. I made a 
series of declarative statements and I will ask you to either 
agree with them or tell me that I'm wrong. It's my 
understanding that that tunnel that was pictured on the news is 
patrolled by the Amtrak police, that only trains that carry 
passengers go through and there is no freight, no tank cars, no 
hazardous materials, only passengers trains, that the rail 
access is controlled at the CSX dispatch control center, and 
that both CSX and Amtrak, in cooperation with the FRA and the 
Department of Homeland Security, have developed an extensive 
security plan relative to that tunnel, that for obviously 
security reasons we don't discuss in open session.
    And lastly, I understand that the camera crew was met by a 
police officer when they attempted to begin their filming. Are 
those things all right or are some of them right and some of 
them wrong?
    Mr. Crosbie. That is a correct assessment. Amtrak is 
responsible for that tunnel. We are working with the local and 
Federal authorities, Homeland Security, DHS, and we have a 
program in place for security for the tunnel which we are not 
going to discuss here.
    Mr. LaTourette. I really appreciate all three of you 
coming. I appreciate the first panel as well. If there are 
follow-up questions--
    Mr. Crosbie. Sir, if you wouldn't mind. I just want for the 
record to note that we have submitted a comprehensive 
transition plan to the GAO for their comments. We gave it to 
them this week. They have that, and we look forward to their 
comments.
    Mr. LaTourette. Maybe you and Ms. Hecker can make friends 
after the hearing and get everything all squared away. Thank 
you, Mr. Crosbie.
    Ms. Brown. Maybe they can answer my time about how much 
time does it take the GAO studies. You have done nine since 
2000. I'm just wondering how much--we mandated it, so I just 
wanted to know how much time it takes, what's the cost. You 
don't have to tell me at this point.
    Mr. Crosbie. I couldn't tell you at this point, but it is a 
lot of work. Amtrak has a number of oversight agencies and GAO 
is one of them. It is a lot of work to put it together, a lot 
of time, especially given that Amtrak has gone to great extents 
to try and reduce its work force in the last few years, so that 
the people that might have been there that were able to just be 
at the beck and call of these oversight agencies are no longer 
there. The people that answer these reports are individuals 
like myself, my staff, people that are running the railroad. It 
is an enormous task for us at times with the requests.
    Ms. Brown. Thank you.
    Mr. LaTourette. Thank you very much for coming. Mr. 
Oberstar had asked earlier to potentially submit additional 
questions that may come up. We would appreciate your continued 
courtesy in answering those if we send them to you.
    Thank you all again, and we are adjourned.
    [Whereupon, at 2:42 p.m., the Subcommittee was adjourned.]

  Statement of the Honorable Corrine Brown, Subcommittee on Railroads 
  Hearing on--``Getting Acela Back on Track''--May 11, 2005--10:00 AM

    I want to begin by thanking Chairman LaTourette for holding this 
hearing to Get Acela Back on Track.
    On April 15, during a routine inspection of an Acela Express train, 
the Federal Railroad Administration (FRA) discovered cracks in the 
spokes of the train's brake discs. This led to an investigation of 
brake discs on the entire Acela fleet. Among the 1,440 brake discs, 
about half of the rotors have failed. As a result, Amtrak has been 
forced to suspend Acela Express service.
    Let me first congratulate Amtrak for being cautious and erring on 
the safe side. I understand that while the FRA recommended that Amtrak 
ground the fleet, it was Amtrak's discretion to do so. Too often, this 
Subcommittee has investigated mechanical failures after an accident has 
occurred and lives are taken. In this case, Amtrak did the right thing 
and grounded the fleet before a catastrophe struck.
    A few weeks ago, I attended a press conference on the Acela crisis, 
and I just want to once again state how much I appreciate Amtrak and 
Amtrak workers for stepping-up to the plate, I working hard to minimize 
service disruptions, and address the needs of Amtrak passengers.
    Amtrak has a lot to deal with. Since its inception in 2000, 
Amtrak's Acela has been I plagued with a host of problems. First there 
were problems with construction of the trainsets. Then the trainsets 
were delivered late. In 2002, Amtrak was forced to ground the entire 
Acela fleet because of cracks in the yaw damper brackets, which act as 
a shock absorber to frames of power cars and locomotives maintained and 
manufactured by the Consortium. According to Amtrak, the service 
disruption cost the corporation a net $17 million in lost revenue.
    Now the FRA has discovered cracks in half of the Acela brake discs, 
and Amtrak is bound to lose even more revenue. The Acela is Amtrak's 
most successful service. It generates about $300 million a year, enough 
to cover its operating costs. In the end, Amtrak stands to lose 
millions of dollars.
    But Amtrak isn't at fault here. The Northeast Corridor Maintenance 
Co., under the auspices of the Consortium, is responsible for 
maintaining these trains--not Amtrak. The Consortium, however, never 
discovered these cracks. I understand that there is evidence that the 
Consortium should have been inspecting and replacing brake discs with 
cracked spokes and hubs, but that never happened. In fact, a technical 
manual and a separate service bulletin that were sent to the Consortium 
both recommended routine inspection and replacement of cracked spokes 
and hubs, but those recommendations were ignored and the Consortium 
never updated its inspection, testing, and maintenance plan to reflect 
the new inspection procedures. I fear that if the FRA inspector had not 
found the cracks in those spokes, the Consortium would not have 
identified the problem until it was too late--until a major accident 
had occurred.
    I believe--however devastating--the Acela crisis was a blessing in 
disguise, and it should serve as a wake-up call for this 
Administration. The Administration has proposed separating operations 
from infrastructure in its so-called Amtrak reform plan. This crisis is 
the perfect example of why that is a bad idea.
    Here we have a private corporation, the Northeast Corridor 
Maintenance Co., which is under the direction of the Bombardier-Alstom 
Consortium, and separate from Amtrak, the train operator, that failed 
to fulfill meaningful maintenance and inspection responsibilities. Just 
look at the British experience with privatization and separation of 
operations from infrastructure and maintenance to understand the 
devastation such failures can cause.
    In March, Chairman LaTourette and I traveled to Europe to look at 
their rail network. We learned that Railtrack, Britain's former rail 
infrastructure manager, had like Amtrak outsourced all of its 
maintenance and engineering work. As a result, the condition of the 
track deteriorated rapidly. Two fatal accidents in 1999 and 2000 
revealed the extent of the deterioration and the company's poor 
understanding of asset conditions, prompting what one observer 
described as "a collective nervous breakdown of the entire British rail 
industry." Thankfully, the British Government learned from their 
mistakes. The Government took back control of their rail network, and 
is now investing billions of dollars in infrastructure, maintenance, 
and other improvements to get their trains back on track. Let's hope it 
doesn't take a few fatal accidents to teach this Congress and this 
Administration a lesson.
    Going back to Amtrak's fiances, I am concerned about Amtrak's 
outlook for the 2005. I heard estimates of what this will cost Amtrak--
from $10 million net per month to hundreds of millions of dollars in 
total damages. I would appreciate it Mr. Crosbie told me whether Amtrak 
has assessed liquidated damages, and to what extent Amtrak and the 
Consortium have discussed legal liability associated with the brake 
disk crisis.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.

[GRAPHIC] [TIFF OMITTED] T2496.012

[GRAPHIC] [TIFF OMITTED] T2496.013

[GRAPHIC] [TIFF OMITTED] T2496.014

[GRAPHIC] [TIFF OMITTED] T2496.015

[GRAPHIC] [TIFF OMITTED] T2496.016

[GRAPHIC] [TIFF OMITTED] T2496.017

[GRAPHIC] [TIFF OMITTED] T2496.018

[GRAPHIC] [TIFF OMITTED] T2496.019

[GRAPHIC] [TIFF OMITTED] T2496.020

[GRAPHIC] [TIFF OMITTED] T2496.021

[GRAPHIC] [TIFF OMITTED] T2496.022

[GRAPHIC] [TIFF OMITTED] T2496.023

[GRAPHIC] [TIFF OMITTED] T2496.024

[GRAPHIC] [TIFF OMITTED] T2496.025

[GRAPHIC] [TIFF OMITTED] T2496.026

[GRAPHIC] [TIFF OMITTED] T2496.027

[GRAPHIC] [TIFF OMITTED] T2496.028

[GRAPHIC] [TIFF OMITTED] T2496.029

[GRAPHIC] [TIFF OMITTED] T2496.030

[GRAPHIC] [TIFF OMITTED] T2496.031

[GRAPHIC] [TIFF OMITTED] T2496.032

[GRAPHIC] [TIFF OMITTED] T2496.033

[GRAPHIC] [TIFF OMITTED] T2496.034

[GRAPHIC] [TIFF OMITTED] T2496.035

[GRAPHIC] [TIFF OMITTED] T2496.036

[GRAPHIC] [TIFF OMITTED] T2496.037

[GRAPHIC] [TIFF OMITTED] T2496.038

[GRAPHIC] [TIFF OMITTED] T2496.039

[GRAPHIC] [TIFF OMITTED] T2496.040

[GRAPHIC] [TIFF OMITTED] T2496.041

[GRAPHIC] [TIFF OMITTED] T2496.042

[GRAPHIC] [TIFF OMITTED] T2496.043

[GRAPHIC] [TIFF OMITTED] T2496.044

[GRAPHIC] [TIFF OMITTED] T2496.048

[GRAPHIC] [TIFF OMITTED] T2496.049

[GRAPHIC] [TIFF OMITTED] T2496.050

[GRAPHIC] [TIFF OMITTED] T2496.051

[GRAPHIC] [TIFF OMITTED] T2496.052

[GRAPHIC] [TIFF OMITTED] T2496.053

[GRAPHIC] [TIFF OMITTED] T2496.054

[GRAPHIC] [TIFF OMITTED] T2496.055

[GRAPHIC] [TIFF OMITTED] T2496.056

[GRAPHIC] [TIFF OMITTED] T2496.057

[GRAPHIC] [TIFF OMITTED] T2496.058

[GRAPHIC] [TIFF OMITTED] T2496.059

[GRAPHIC] [TIFF OMITTED] T2496.060

[GRAPHIC] [TIFF OMITTED] T2496.061

[GRAPHIC] [TIFF OMITTED] T2496.062

[GRAPHIC] [TIFF OMITTED] T2496.063

[GRAPHIC] [TIFF OMITTED] T2496.064

[GRAPHIC] [TIFF OMITTED] T2496.065

[GRAPHIC] [TIFF OMITTED] T2496.066

[GRAPHIC] [TIFF OMITTED] T2496.067

[GRAPHIC] [TIFF OMITTED] T2496.068

[GRAPHIC] [TIFF OMITTED] T2496.069

[GRAPHIC] [TIFF OMITTED] T2496.070

[GRAPHIC] [TIFF OMITTED] T2496.071

[GRAPHIC] [TIFF OMITTED] T2496.072

[GRAPHIC] [TIFF OMITTED] T2496.073

[GRAPHIC] [TIFF OMITTED] T2496.074

[GRAPHIC] [TIFF OMITTED] T2496.075

[GRAPHIC] [TIFF OMITTED] T2496.076

[GRAPHIC] [TIFF OMITTED] T2496.077

[GRAPHIC] [TIFF OMITTED] T2496.078

[GRAPHIC] [TIFF OMITTED] T2496.079

[GRAPHIC] [TIFF OMITTED] T2496.080

[GRAPHIC] [TIFF OMITTED] T2496.081

[GRAPHIC] [TIFF OMITTED] T2496.082

[GRAPHIC] [TIFF OMITTED] T2496.083

[GRAPHIC] [TIFF OMITTED] T2496.084

[GRAPHIC] [TIFF OMITTED] T2496.085

[GRAPHIC] [TIFF OMITTED] T2496.086

                                    

</pre></body></html>
